 About
 The National Science Foundation...
       The National Science Foundation (NSF) is charged with supporting and strengthening all research
 disciplines, and providing leadership across the broad and expanding frontiers of scientific and engineering
 knowledge. It is governed by the National Science Board which sets agency policies and provides oversight
 of its activities.

       NSF invests approximately $5 billion per year in almost 20,000 research and education projects in
 science and engineering, and is responsible for the establishment of an information base for science and
 engineering appropriate for development of national and international policy. Over time, other
 responsibilities have been added including fostering and supporting the development and use of
 computers and other scientific methods and technologies; providing Antarctic research, facilities and
 logistic support; and addressing issues of equal opportunity in science and engineering.

 ... And The Office of Inspector General
       NSF’s Office of Inspector General promotes economy, efficiency, and effectiveness in administering
 the Foundation’s programs; detects and prevents fraud, waste, and abuse within NSF or by individuals
 that receive NSF funding; and identifies and helps to resolve cases of misconduct in science. The OIG
 was established in 1989, in compliance with the Inspector General Act of 1978, as amended. Because
 the Inspector General reports directly to the National Science Board and Congress, the Office is
 organizationally and operationally independent from the agency.




Front cover photograph: Peter West and Gloria vanKan/NSF
National Science Foundation Headquarters
Arlington, Virginia
September 11, 2002
                                              From the Inspector General



     P
          ursuant to the Inspector General Act of 1978, section 5(b), I am pleased to present this
          summary of our accomplishments for the six-month period ending September 30, 2002.
          As we approach the 25th anniversary of the Inspector General Act, I take great pride in the
accomplishments and contributions of our own Office of Inspector General and the larger IG
community. The audits, investigations, reviews and other activities described in this report have one
common attribute: all are aimed at improving the accountability and performance of our awardee
community, the National Science Foundation, and our own OIG.

      The past six months have been a busy period. Our office issued 21 audit reports that identified
$9.7 million in promised cost sharing that is at-risk of not being contributed, and an additional $869,133
in questioned costs. We also identified $444,103 in funds that could be put to better use. We closed 18
civil/criminal cases, 29 administrative cases, and made $327,973 in recoveries. We also referred two
cases to the Department of Justice.

      These are both exciting and challenging times for the science community and NSF. As the
agency’s budget continues to grow, and the complexity of science and technology increases, those of
us involved with the agency’s oversight must continuously improve our work methods to keep pace.
Our OIG has recently undertaken several initiatives to improve our operations. We are in the process
of developing a new knowledge management system that will improve efficiency. We have also enhanced
the effectiveness of our annual audit planning by conducting a comprehensive risk assessment of NSF
operations. Following on our strategic plan, we published our first performance plan last year, and
plan to survey our employees each year to get their candid assessment of all of our efforts.

     Finally, many changes have occurred in the leadership and composition of the National Science
Board over the past six months. We warmly welcome Dr. Warren Washington as Chairman of the
NSB, Dr. Mark Wrighton as Chairman of the Audit and Oversight Committee, and nine new members
appointed last month by the President to the NSB who are awaiting Senate confirmation. The continuing
support of the Board for this office over the past six months has been appreciated and has a direct
bearing on our effectiveness. We look forward to working with NSB members, and the NSF Director
and staff, to continue to improve an organization that already has many accomplishments.




                                                                             Christine C. Boesz, Dr.P.H.
                                                                                      Inspector General
                                                                                      November 6, 2001
                                                                                            Table of Contents


Executive Summary .......................................................................... 5

OIG Management Activities ............................................................... 7
         Congressional Testimony ........................................................................................ 7
         Legislative Review .................................................................................................... 8
         Information Systems ............................................................................................... 8
         Outreach/Prevention Activities ............................................................................. 9

Audits and Reviews ......................................................................... 15
         Significant Reports ................................................................................................. 15
         Other Reports ......................................................................................................... 26
         Corrective Action Prompted by Previous Audit Findings ............................... 31
         Work in Progress .................................................................................................... 32

Investigations .................................................................................. 35
         Summary of Case Activity .................................................................................... 35
         Civil and Criminal Investigations ......................................................................... 36
         Administrative Investigations ............................................................................... 39
         Other Investigative Activities ............................................................................... 44

Statistical Data ................................................................................ 47

Appendicies
         Reporting Requirements ....................................................................................... 61
         Acronyms ................................................................................................................ 63
                                                  Executive Summary
• The FY 2001 Management Letter Report discusses in detail the
  internal control findings referred to during the FY 2001 financial
  statement audit, including the reportable condition regarding
  post-award grant and asset management identified in the FY
  2001 Independent Auditor’s Report. The report also describes
  the need for NSF to improve its cost accounting and perfor-
  mance measurement systems in order to better assess the effec-
  tiveness and efficiency of NSF’s operating performance. In
  addition, we completed our assessment of NSF’s information
  security program required by GISRA (Government Information
  Security Reform Act). The report identifies three significant
  deficiencies for NSF to address. (See page15)

• At the request of a Senate subcommittee, we performed an audit
  of the funding for major research equipment and facilities
  projects to determine if NSF solely used its Major Research
  Equipment appropriation to fund these expenses. We found
  that, despite a concerted effort to improve its oversight of large
  projects, NSF’s policies did not yet provide adequate guidance for
  program managers to manage the financial aspects of these
  projects. The policies allowed NSF to use multiple appropriation
  accounts to fund the acquisition and construction costs of major
  research equipment and facilities, and led to inconsistencies in
  the types of costs funded through the MRE account. NSF’s
  practice was to track only those costs funded from the MRE
  account and not the full cost of the major research equipment
  and facilities. As a result, NSF could not ensure that it stayed
  within its authorized funding limits or that it provided accurate
  and complete information on the total costs of major research
  equipment and facilities. Although NSF did not concur with the
  report findings, it agreed to incorporate the report’s recommen-
  dations into the Guidelines and Procedures it is developing for
  managing large facilities. (See page 18)

• To assess the extent of cost-sharing problems in NSF awards, we
  launched two audit initiatives: one at five campuses of a western
  state university system and the other at eight geographically
  diverse institutions throughout the United States. During this
  period, we are reporting on the last of these 13 audits. We
  completed a cost-sharing audit at a northeastern university that
  received five NSF awards with $3.8 million of required cost
  sharing and found that the university did not have an adequate

                                                                       5
Executive Summary




                       internal control structure for managing, accounting for, and reporting on its
                       cost-sharing obligations. As a result of these problems, we were unable to
                       conclude whether or not the $3.8 million of claimed cost sharing was allowable
                       under Federal requirements. (See page 19)

                    • In this Semiannual Report, we summarize audits conducted of two NSF credit
                      card programs, and describe the efforts of our investigative staff to monitor
                      credit card use for improper purchases. Our audit of purchase card use makes
                      seven recommendations for improvement of the program. Issues involving card
                      security, irregular transactions, and the recording of accountable property, were
                      referred to our auditors by investigative staff who conducted their own review.
                      Meanwhile an audit of the travel card program found that while NSF is effec-
                      tively monitoring and managing delinquent travel card accounts, its policies and
                      practices do not yet address monitoring the unauthorized use of travel cards.
                      (See pages 26, 37)

                    • Participants in two separate fraud schemes were debarred during this period.
                      One involved an employee of an NSF-funded research center that had submit-
                      ted fraudulent travel reimbursements. The employee pled guilty to theft/
                      embezzlement from a program receiving Federal funds, paid restitution in the
                      amount of $19,871, and was sentenced to three years probation and 150 hours
                      of community service. NSF’s Deputy Director informed the subject of a pro-
                      posed debarment for a period of three years. In the second case, a laboratory
                      technician/administrative assistant fraudulently endorsed and cashed 40 payroll
                      checks payable to former temporary employees. Four Federal agencies lost a
                      total of $50,484 over a 16-month period as a result of this scheme. Because the
                      employee resigned, acknowledged responsibility for the fraud, and arranged to
                      pay restitution, the Assistant U.S. Attorney declined to prosecute the case in lieu
                      of administrative action. Consistent with our recommendation, the NSF
                      Deputy Director debarred the subject for a period of two years. (See page 38)

                    • Previously we described a case in which a person seriously misrepresented his
                      research progress and capabilities in proposals submitted to NSF. The Deputy
                      Director found that the subject committed misconduct in science and required
                      him to provide detailed certifications and assurances to OIG for two years
                      starting in 1999, in connection with any proposal or report submitted to NSF.
                      However the subject knowingly, deliberately, and repeatedly failed to provide
                      the certifications and assurances that were required of him. The matter resulted
                      in a settlement agreement that required the professor to provide detailed certifi-
                      cations and assurances in connection with any research proposals or reports he
                      submits to NSF until October 25, 2003. The agreement also stipulated that
                      any breach of the certification and assurance requirements will constitute a
                      material breach of the agreement, warranting debarment under NSF’s debar-
                      ment regulation. (See page 42)


             6
                                    OIG Management Activities

Congressional Testimony

     I
          n May 2002, the Inspector General testified before the U.S.
          Senate, Committee on Appropriations, Subcommittee on VA,
          HUD, and Independent Agencies, to provide an update on
the status of National Science Foundation’s (NSF) efforts to address our
FY 2002 management challenges, including post-award management,
workforce planning, and large facilities management.
     While NSF has a robust system of award management over its pre-
award and award phases, Dr. Boesz stated that the agency needs to
develop a more rigorous risk-based monitoring program for the post-
award phase. Weak controls over post-award grant monitoring and
tracking of NSF-owned assets in awardees’ custody were cited as a
reportable condition in the agency’s most recent financial statement
audit. Dr. Boesz also discussed the results of a report on the adequacy
of NSF’s workforce planning, a review previously requested by the
Subcommittee (see page 27 ). Finally, the IG reported on NSF’s progress
in improving its financial management practices for large facility projects,
and the development of the implementing Guidelines and Procedures.
Dr. Boesz presented the results of an audit of the MRE appropriation
account previously requested by the Subcommittee (see page 18).
      Dr. Boesz noted that NSF funds two distinctly different types of
large facilities projects from the same account: those that invest in state-
of-the-art, scientific tools for research and development of new
knowledge and ideas; and those that support mission-critical property,
plant, and equipment that provide the facilities and logistical means for             HIGHLIGHTS
a broad range of science to take place, primarily in NSF’s Polar Programs.
Both types of projects require effective project management to ensure          Congressional
that they are completed on schedule, obtained at a fair price, and perform     Testimony               7
as expected. Federal accounting standards also require both types of
projects to account for the total costs of each project.
                                                                               Legislative Review      8
     However, funding both types of projects from a single appropriation
account creates a potential situation in which the replacement,                Information Systems     8
renovation, and upkeep of assets critical to the safety and health of
researchers and support personnel must compete for limited funding             Outreach/
with new and improved scientific tools. The Inspector General suggested
                                                                               Prevention Activities   9
that NSF prioritize the mission-critical property plant and equipment


                                                                               7
OIG Management Activities




                            projects separately from the development and construction of research tools, and
                            consider establishing different sources of funding for each, to avoid possible negative
                            impact on the broad range of programs these assets support.


                            Legislative Review
                                  The Inspector General Act of 1978, as amended, mandates that our office
                            monitor and review legislative and regulatory proposals for their impact on the Office
                            of Inspector General (OIG) and NSF programs and operations. We perform these
                            tasks for the purpose of providing leadership in activities that are designed to promote
                            effectiveness, efficiency, and the prevention of fraud, waste, abuse and mismanagement.
                            We also keep Congress and NSF management informed of problems and monitor
                            legal issues that may have a broad effect on the Inspector General community.
                               During this reporting period, we reviewed 21 bills that affected either NSF,
                            OIG, or both. The following bill merits discussion in this section.

                            Program Fraud Civil Remedies
                            Act of 1986 (PFCRA) (31 U.S.C. §§ 3801-3812)
                                 A legislative priority that we support and have discussed in previous Semiannual
                            Reports is amending PFCRA to include NSF and the 26 other “Designated Federal
                            Entity” (DFE) agencies that are currently excluded from participation under PFCRA’s
                            enforcement provisions. PFCRA sets forth administrative procedures that enable
                            defrauded agencies to proceed administratively to recover double damages and penalties
                            when the amount of loss is less than $150,000. The DFEs are generally smaller
                            agencies that intrinsically are more likely to have cases involving smaller dollar amounts.
                                  The OIG’s concern involves the ability of DFE agencies to fully implement
                            their statutory mission to prevent fraud, waste and abuse by availing themselves of
                            the enforcement capabilities contained within PFCRA. The enforcement provisions
                            of PFCRA will enhance the recovery efforts of NSF and other DFE agencies.
                                  The joint legislative committee of the President’s Council on Integrity and
                            Efficiency (PCIE) and the Executive Council on Integrity and Efficiency (ECIE) is
                            considering a recommendation that PFCRA be amended, as described above.


                            Information Systems
                            New Knowledge Management System for OIG
                                 Over the past year, we have been working with an information technology
                            contractor to develop a Knowledge Management System for the office. Once it is
                            completed, we expect our workforce to perform more efficiently with an IT system


                    8
                                                                 OIG Semiannual Report September 2002




that will (1) allow faster and easier access to timely
information, (2) reduce duplication of effort in such
routine tasks as entering data and formatting reports,
(3) support staff collaboration and team efforts
through more effective information sharing, and (4)
improve management and tracking capabilities for
audits, investigations, evaluations, and internal office
administration.
     The system requirements and preliminary design
have been completed, and we are currently testing a
baseline system that integrates and updates dozens            OIG staff Jill Schamberger, Jennifer Geer,
of spreadsheets, databases, and other “stovepipe” Catherine Ball, and Peggy Fischer discuss new
applications that have been in use. The new system                    IT system at office retreat.
has already made it much easier for staff to record
and retrieve information related to audits and investigations, e.g., objectives, staffing,
milestones, results, and costs. It was also used to generate the statistical tables for this
report.
     After final testing of the baseline system, we will identify system enhancements
to support additional administrative functions, such as customizable reports and time
management services.


Outreach / Prevention Activities
Interaction with the Awardee Community
      In June the IG participated in a conference of California State University (CSU)
sponsored research administrators hosted by CSU, Long Beach. The IG presented
an overview of Federal compliance issues that affect NSF awardees. Continuing
discussions focused on cost-sharing compliance and OMB Circular A-133 audits.
Afterwards, an NSF representative presented the agency’s perspective on these and
other issues. The outreach was particularly effective because the IG and NSF were
there together to discuss Federal and NSF-specific compliance issues affecting CSU
institutions.
     Central to our outreach goals is maintaining an ongoing discussion with the
awardee community regarding our policies and procedures. We attend outreach and
other meetings to provide information and to learn about the communities served by
NSF. We focused on two issues this semiannual period: conflicts of interests (COI)
and research misconduct.




                                                                                               9
OIG Management Activities




                            Conflicts of Interests
                                 In our March 2002 Semiannual Report (p. 14), we discussed an internal analysis
                            of COI cases conducted by this office. The issue has gained heightened interest as
                            more and more universities are supporting or engaging in business activities involving
                            new inventions, which increases the potential for actual and apparent conflicts of
                            interests.
                                 In April 2002 we gave a presentation at a “Conflict of Interest and Research
                            Integrity Conference” hosted by Washington University, the HHS Office of Research
                            Integrity, St. Louis University, and the University of Missouri, Columbia. The purpose
                            of the conference was to discuss the impact of COI and research integrity concerns
                            on the public’s faith in research results. It was clear from the remarks of both the
                            presenters and the audience that those who address COI issues must pay particular
                            attention to equity interest and technology transfer.
                                 Our office contributed an article on COI that appears in the Fall issue of the
                            Journal of the Society of Research Administrators International (SRA). The article
                            discusses NSF’s requirements and expectations regarding COI policies and identifies
                            factors that institutions need to consider in developing a COI policy.
                                 We are preparing to lead a workshop on COI for the annual SRA meeting in
                            October 2002. The workshop will focus on issues related to technology transfer,
                            reviewer conflicts, institutional COI policies, and university researchers involved in
                            outside endeavors. The workshop is designed to generate proactive strategies for
                            dealing with COI issues and use case studies to discuss effective responses to common
                            COI problems.
                                  To ensure that the workshop contained pertinent and useful information, we
                            met with technology transfer experts from public and private universities to elicit
                            their perspectives. We learned that increasing numbers of university faculty are sitting
                            on boards, acting as consultants, and playing other roles in companies that may
                            create conflicts of interest and commitment. Those who receive compensation for
                            their efforts must be careful to avoid financial COI. It can become difficult to
                            resolve COI issues when faculty members have financial stakes in potentially profitable
                            technologies or the university has equity in the start-up company exploiting the
                            technology. We learned that universities engage in technology transfer activities for
                            two primary reasons: to enhance the reputation, recruitment, and retention of faculty,
                            or to obtain revenue for the university.

                            Research Misconduct
                                 NSF’s updated research misconduct regulation became effective on April 17,
                            2002. We were able to discuss the changes with research scientists and administrators
                            at a meeting of the Council for Undergraduate Education, an NSF Regional Grants
                            Seminar, and a university briefing. We also compared various institutional policies




                   10
                                                                 OIG Semiannual Report September 2002




and procedures with NSF’s research misconduct regulation, and learned of training
plans and needs for institutions trying to administer the new policy.
     At a meeting of the Council for Science Editors, we spoke with editors of scientific
publications that contain articles written by NSF grantees based on their NSF-funded
research. We discussed ways in which these editors can address allegations of
misconduct and encouraged them to forward such allegations to us.
     Participants at some of our outreach events have told us that instances of
wrongdoing associated with NSF grants are sometimes resolved at the institution
and never reported to OIG. Although NSF’s research misconduct regulation only
requires notice to NSF if an inquiry supports a formal investigation, we encourage
recipients of NSF awards to report all allegations of wrongdoing with regard to NSF-
sponsored research to OIG. Increased awareness of OIG’s role is a key part of our
ongoing efforts
     Finally, we developed a brochure outlining the new regulation and explaining
OIG’s process for handling research misconduct allegations. The brochure is available
at http://oig.nsf.gov/brochure.pdf.

Interaction within NSF
OIG staff continues to coordinate activities with
NSF:
 • OIG staff chaired the Audit Coordinating
   Committee, which regularly brings together
   OIG, contractor, and NSF staff to plan and
   review the progress of the annual financial
   statement audit and other auditing matters.
 • OIG staff gave presentations at each of the
   Program Management Seminars conducted by
   NSF for new program officers and represented
   OIG on various NSF committees and working
   groups. The Deputy IG, for example,
   participated on an agency working group              Dr. Boesz joins CFO TOM Cooley and Dr. Bordogna for the
   reviewing NSF recruiting and hiring procedures.           presentation of the Certificate of Excellence in
                                                                    Accountability Reporting to NSF.
 • We responded to NSF requests for comment
   on its revisions of its Grant Policy Manual and Grant Proposal Guide. In addition,
   we provided comments on NSF’s new Risk Assessment and Award Monitoring
   Guide.
 • One of our Senior Audit Managers attended a Division of Acquisition and Cost
   Support (DACS) retreat and served on a panel discussing how DACS customers
   assessed its performance. This type of outreach activity helps the OIG
   communicate issues and fosters collegial relationships within the agency.


                                                                                              11
OIG Management Activities




                            Interaction with the IG Community
                                 We are implementing three practices designed to improve the professionalism
                            of NSF’s OIG: engaging in a peer review process to ensure that our office’s policies
                            and organization optimize the resources at our disposal; developing and instituting
                            core competencies to increase the productivity and expertise of the investigative staff;
                            and providing training to and working with other IG offices.
                                  Peer Review. In our March 2002 Semiannual Report (page 51), we discussed
                            our preparations for peer review of our Investigations unit. The PCIE/ECIE
                            Investigations Committee promulgated a draft Guide for Conducting Qualitative
                            Assessment Reviews for Investigative Operations of Inspectors General (Guide). We have
                            used the Guide to modify and improve our existing procedures and develop a new
                            Investigations Manual that incorporates the Guide’s principles. We anticipate that
                            our Investigations office will undergo a peer review during the upcoming semiannual
                            period.
                                 Core Competencies. We have identified five core competency areas, including
                            investigative skills, interviewing techniques, and general knowledge about grant fraud,
                            auditing, and certain provisions of the law. We have ensured that all of our investigators
                            and attorneys have basic professionally recognized training in each area. For example,
                            in this period, investigative staff attended the Federal Law Enforcement Training
                            Center (FLETC) IG Academy Basic Non-Criminal Investigator Training course,
                            FLETC-sponsored Hot Line training, and Fraud Examiner training. Other training
                            included courses on the Freedom of Information Act, the Privacy Act, and legal
                            ethics.
                                  Coordination. We were invited to participate in IG Academy course curriculum
                            reviews for the Academy’s new Editing Investigative Products Training Program
                            (EIPTP) and Continuing Legal Education Training Program. We assisted in the
                            development of EIPTP, a three-day program designed for managers and independent
                            editors who review and edit investigative written products. Two of our Investigations
                            staff served as instructors for the inaugural class.
                                 We provided the Environmental Protection Agency (EPA) IG information on
                            NSF environmental programs for its Compendium of Federal Environmental
                            Programs, which included NSF data. We also continued our participation in the
                            Association of Directors of Investigation conference, interagency SmartPay working
                            group meetings, and the Grant Fraud Working Group.
                                  Dr. Boesz Chairs Misconduct in Research Working Group. We continue to
                            assist the IG community in assessing its role in the implementation of the Office of
                            Science and Technology Policy (OSTP) Policy on Research Misconduct. NSF’s IG
                            chairs the PCIE/ECIE Misconduct in Research Working Group (MIRWG), which
                            serves as a focal point for discussions about OIG roles in research misconduct
                            investigations. The MIRWG links OIG and agency representatives so that issues of



                   12
                                                                 OIG Semiannual Report September 2002




mutual concern can be properly vetted. The MIRWG has developed a supplement
to the PCIE/ECIE Quality Standards of Investigations, which addresses unique issues
arising in research misconduct investigations. We have also recently developed a
checklist for OIG oversight of agency research misconduct investigations and a position
paper on the link between fraud and research misconduct.

Interaction with Other Federal Agencies
      In May, we responded to an OMB request for comments on proposed revisions
to OMB Circular A-133, Audits of States, Local Governments, and Non-Profit
Organizations. We agreed in principle with OMB raising the audit threshold from
$300,000 to $500,000 a year. We also agreed with OMB’s
plan to raise the dollar threshold for designating cognizant
agencies from $25 to $50 million because it would not adversely
affect our cognizance over grantees that NSF primarily funds.
     One of our Audit Managers served as the Chairman of
the Financial Statement Audit Network, a subcommittee of
the Federal Audit Executive Council. The mission of the
Network is to promote the sharing of best practices; provide a
forum for discussing current developments; serve as a conduit
for providing information to members; and facilitate
commenting on pending guidance, regulations and legislation.
In addition, we served on the GAO/PCIE FAM committee
responsible for updating the Financial Audit Manual. This
manual will be used by Offices of Inspector General and the
General Accounting Office for conducting financial statement
audits and monitoring audits conducted by Independent Public
Accountants.                                                          David Radzanowski of OMB speaks
                                                                           at OIG retreat last June.




                                                                                           13
OIG Management Activities




                   14
                                                             Audits & Reviews


     W
                  e are responsible for auditing grants, contracts, and
                  co-operative agreements funded by NSF, and for
                  reviewing agency operations to ensure that they are
conducted effectively and efficiently. Many factors are used to determine
what to audit or review, including requests by Congress, National Science
Board members, key NSF managers, and other government officials.
In selecting our audits, we also consider NSF strategic goals and
management challenges, award recipients’ prior experience in managing
federal awards, and priorities set by Federal financial regulatory bodies
and the OIG. We focus our audits and reviews on areas that present the
most management and financial risk to NSF in accomplishing its
scientific research and education goals effectively and efficiently. We
attempt to identify these areas of risk proactively to prevent serious
occurrences that could impede NSF’s mission.
      Our financial and compliance audits determine (1) whether costs
claimed by award recipients are allowable, reasonable, and properly
allocated to NSF’s awards, and (2) if awardees had adequate procedures
and controls to ensure compliance with Federal laws and regulations,
NSF requirements, and the terms and conditions of the award.
Performance audits and reviews evaluate the effectiveness and the
efficiency of the administrative and programmatic aspects of NSF and
awardee operations. In addition, by law we conduct the annual audit of
NSF’s fiscal year financial statements, including evaluations of internal
controls and data processing systems.
                                                                                    HIGHLIGHTS


Significant Reports                                                          Significant Reports   15


Financial Statement Audit                                                    Other Reports         26
and Review of Information Systems
                                                                             Corrective Action
     Improving financial management and information security have            Prompted by
been important priorities of the Federal Government for many years.
Current efforts are driven by The President’s Management Agenda, which
                                                                             Previous Audit
identifies improved financial management as one of the five government-      Findings              31
wide initiatives. The President’s goal is to ensure that Federal financial
management systems produce accurate and timely information to                Work in Progress      32
support operating, budget, performance, and policy decisions.

                                                                              15
Audits & Reviews




                        Since 1990, Congress has enacted several laws designed to improve Federal
                   financial management and information systems security. The Chief Financial Officer’s
                   Act of 1990, as amended, requires that Federal agencies prepare financial statements
                   and the agency’s OIG, or an independent public accounting firm selected by the
                   OIG, audit these statements annually. The Government Information Security Reform
                   Act of 2000 (GISRA) requires agencies to perform annual reviews and report to the
                   Office of Management and Budget on their information systems security programs.
                   In addition, Inspectors General are to provide independent evaluations of the
                   information security programs and practices of their agencies. We contracted with
                   the auditing firm KPMG, LLP to perform these reviews.
                        In the March 2002 Semiannual Report (page 20) we reported on the results of
                   NSF’s FY 2001 financial statement audit, which included the results of its information
                   system security review. We also report on the results of our FY 2002 assessment of
                   NSF’s information systems security program required by GISRA and indicated that
                                                               in this Semiannual Report we would
                                                               discuss our FY 2001 Management Letter
                                                               Report.
                                                                      The FY 2001 Management Letter
                                                                 Report contained detailed discussions on
                                                                 the internal control findings identified
                                                                 during the FY 2001 financial statement
                                                                 audit, including the reportable condition
                                                                 regarding post-award grant and asset
                                                                 management that was identified in the
                                                                 FY 2001 Independent Auditor’s Report.
                                                                 The FY 2001 Management Letter Report
                                                                 also described the need for NSF to
                                                                 improve its cost accounting and
                                                                 performance measurement systems in
                                                                 order to better assess the effectiveness
                                                                 and efficiency of NSF’s operating
                                                                 performance.
    Joel Grover, Catherine Walters, John McCreary and Jannifer       Specifically, the audit found that
      Jenkins (not pictured) received the PCIE/ECIE Award for  cost information for NSF activities are
                        Excellence in Audit.
                                                               not reported on a regular basis thereby
                                                               impairing management’s ability to make
                                                               informed operational decisions,
                   precluding meaningful and timely reporting on performance measures, and increasing
                   the risk of project cost overruns and program inefficiencies remaining undetected.
                   NSF management did not concur with the findings related to cost accounting and
                   performance measurement system deficiencies but agreed that cost accounting was a
                   management challenge. Consequently, NSF retained a management-consulting firm


          16
                                                                            OIG Semiannual Report September 2002




to conduct an integrated performance, cost and budgetary strategy assessment for
NSF, and to provide different scenarios for NSF to consider in addressing challenges
identified in the financial management area.
     The consultant issued a report in August 2002 identifying options for establishing
additional cost accounting and performance measurement capabilities to satisfy the
fundamental and long-term needs of NSF. As a result, NSF developed a draft action
plan to achieve better alignment with resources and goals of the agency. This plan is
being vetted through OMB for comment and consultation. Once a final plan of
action is agreed to with OMB, NSF will initiate implementation of the plan. We are
continuing to work with NSF to resolve these issues.
      The FY 2001 Federal Information System Control Audit Manual (FISCAM)
Management Letter Report also contained internal control findings and
recommendations related to NSF’s information systems environment. The
management letter report discussed the reportable condition included in our FY 2001
Independent Auditors Report identifying weaknesses in NSF’s electronic data information
systems. It also reported on six other findings, including the need for NSF to ensure
that a large contractor fully develops and implements an information security program
in accordance with Office of Management and Budget and National Institute of
Standards and Technology guidance. This weakness had been reported in the previous
year but corrective measures had not been fully implemented. Management concurred
with the recommendations in the report and has made progress in addressing the
specific recommendations.
      During this semiannual period we also completed our assessment of NSF’s
information security program required by GISRA and performed in conjunction with
our ongoing FY 2002 financial statement audit work. The report, FY 2002 Government
Information Security Reform Act Independent Evaluation and FISCAM Management
Letter, identified ten findings, three of which we considered to be significant
deficiencies1. The significant deficiencies involved a need for NSF to: formalize the
authorities, responsibilities and agency positions charged with carrying out the agency’s
information security program; improve the design, administration and monitoring
of access controls over critical internal NSF applications; and ensure that all of NSF’s
major systems are certified and accredited. NSF management concurred with the
recommendations in this report but disagreed with the classification of the three
findings as significant deficiencies.
     The results of our FY 2002 financial statement audit will be reported in our
next Semiannual Report.




1
 A significant deficiency is a weakness in a policy, procedure, or practice that could materially
impact the effectiveness of the entity-wide security program.


                                                                                                    17
Audits & Reviews




                   Financial Management of Major
                   Research Equipment and Facilities Projects
                         Providing effective management and oversight of large facilities and research
                   equipment projects continues to be a major management challenge for NSF, and a
                   continuing concern of Congress, as well as this office. Through FY 2002, NSF has
                   provided well over $700 million from the appropriation account2 , to fund the
                   construction of major research equipment and facilities that provide unique capabilities
                   at the cutting edge of science and engineering. In earlier reporting periods, our
                   audits identified needed improvements in NSF’s policies and procedures for managing
                   and overseeing large facility projects. In response, NSF developed the Large Facility
                   Project Management and Oversight Plan, and is in the process of finalizing its Large
                   Facility Project Guidelines and Procedures. Together, these policies and procedures
                   are intended to provide guidance for managing all aspects of large facility projects,
                   emphasizing fund control and effective project management.
                         New Audit Report Issued. At the request of the former Chairman of the
                   Subcommittee on VA, HUD and Independent Agencies of the Senate Appropriations
                   Committee, we performed an audit of the funding for major research equipment and
                   facilities. The purpose of our audit was to determine if NSF solely used its Major
                   Research Equipment appropriation to fund the construction and acquisition costs
                   for major research equipment and facilities, and to determine if NSF had established
                   adequate management controls to ensure that these expenditures were derived solely
                   from MRE appropriations.
                         We found that, although NSF had made a concerted effort to improve its
                   management and oversight of projects receiving funding from the MRE appropriation
                   account, more needed to be done to improve its financial management of these
                   projects. NSF’s policies and practices did not yet provide adequate guidance for
                   program managers to oversee and manage the financial aspects of major research
                   equipment and facilities. These policies had allowed NSF to use multiple appropriation
                   accounts to fund the acquisition and construction costs of major research equipment
                   and facilities, and led to inconsistencies in the types of costs funded through the
                   MRE account. Additionally, NSF’s practice was to track only those costs funded
                   from the MRE account and not the full cost of the major research equipment and
                   facilities. As a result, NSF could not ensure that it stayed within its authorized
                   funding limits or that it provided accurate and complete information on the total
                   costs of major research equipment and facilities to decision-makers for use in evaluating
                   performance.




                   2
                    Formerly the Major Research and Equipment account. Congress renamed the account the Major
                   Research Equipment and Facilities Construction (MREFC) in fiscal year 2002 to better reflect the
                   account’s intent.


          18
                                                                OIG Semiannual Report September 2002




      In the report, we recommend that NSF improve its financial management and
accounting policies and procedures to ensure that it manages and oversees the full
cost of major research equipment and facilities. These improvements must ensure
that NSF tracks the total costs of the major research equipment and facilities in
accordance with Federal accounting and management guidance, develops the
appropriate financial management practices to oversee its major research equipment
and facilities, specifies how cost overruns are to be handled, and uses appropriation
accounts in accordance with their stated purpose. In addition, NSF needs to provide
training on the updated policies and procedures to all NSF personnel involved with
the funding and accounting for major research equipment and facilities.
      NSF did not concur with the report findings. NSF believes its use of MREFC
funds has been consistent with the purposes for which the appropriations were made.
NSF also believes that while its financial accounting system does not formally track
all of the costs of major research facilities, it is nonetheless able to accumulate and
report those costs through other records and manual processes such that accurate and
complete information is available to decision makers, when necessary. While
disagreeing with the findings, NSF has agreed to address our recommendations and
indicated that its corrective actions were well under way based on an earlier audit of
a major facility project.
      Status of NSF’s Implementation of Audit Recommendations Related To Large
Facilities Projects. In the March 2001 Semiannual Report, we reported on our audit
of the financial management of a large facility project. In that report, we recommended
several actions to help NSF improve its large facility project administration. During
this reporting period, NSF provided the National Science Board with an updated
assessment of the project’s cash flow plan, and amended its Grant Policy Manual to
clarify the funding source for construction expenses for these projects. At the end of
this reporting period, actions to address three of the seven recommendations remain
in process, pending the issuance of NSF’s Guidelines and Procedures to improve the
financial management over the large facilities projects.

Cost Sharing
      As we reported in our March 2002 Semiannual Report (pp. 23-30), to assess the
extent of cost-sharing problems in NSF awards we have undertaken two audit
initiatives, one at five campuses of a western state university system and the other at
eight geographically diverse institutions throughout the United States. During this
period, we are reporting on the last of these 13 audits. We also are providing updates
on NSF’s actions to resolve three of our prior cost-sharing audit reports.




                                                                                          19
Audits & Reviews




                   A Northeastern University Lacks
                   Support for $3.8 Million of Required Cost Sharing
                        We completed a cost-sharing audit at a northeastern university that received
                   five NSF awards with $3.8 million of required cost sharing during the audit period
                   1995 through 2001. During this same time period NSF funded more than 1,000
                   awards at this university, for an investment of $612.8 million. On 174 of these
                   awards, the university promised approximately $31 million of cost sharing. Thus
                   the $3.8 million of cost sharing required on the five awards included in our audit
                   represented approximately 12 percent of the total cost sharing the university promised
                   on the NSF awards it received during this time period.
                         Our review found that the university did not have an adequate internal control
                   structure for managing, accounting for, and reporting on its cost-sharing obligations.
                   Individual university departments did not track cost sharing in separate accounts
                   and could not support the amount of cost sharing claimed for a specific NSF award.
                   We found that the departments tracked cost sharing in multiple accounts, some of
                   which commingled both cost-sharing expenses and other expenses unrelated to NSF
                   projects. In addition, the university did not monitor subrecipients’ cost sharing,
                   resulting in inadequate documentation to support the existence of, or the valuation
                   for, claimed cost sharing.
                        As a result of these problems, we were unable to conclude whether or not the
                   $3.8 million of claimed cost sharing was allowable, reasonable, and allocable under
                   Federal requirements. More generally, the inadequacies in the system for accounting
                   for cost sharing increase the risk that the university may not be properly accounting
                   for more than the approximately $31 million of cost sharing promised on other NSF
                   awards funded concurrently with the five audited awards. We do not believe the
                   university placed sufficient priority on ensuring compliance with cost-sharing
                   guidelines. In addition, contrary to NSF requirements, the university did not submit
                   annual cost-sharing reports. As a result, NSF lacked adequate information to effectively
                   administer the five awards.
                         We recommended that NSF perform a follow-up on-site review to ensure that
                   the university: 1) take action to separately account for its cost-sharing obligations on
                   each Federal award; 2) monitor its departmental and subrecipient cost sharing,
                   including periodic reviews and site visits and; 3) provide certified cost-sharing reports
                   to NSF. The university acknowledged that its cost-sharing accounting system had
                   flaws, but thought the report overstated the seriousness of the findings. Nevertheless,
                   it agreed to track the cost-sharing in separate accounts to support cost sharing on
                   individual NSF awards, and to improve its monitoring by requiring subrecipients to
                   certify on each invoice that claimed cost-sharing expenses were actual expenses incurred
                   for NSF awards.




          20
                                                                  OIG Semiannual Report September 2002




Southern University Unable to
Document $414,477 of Subrecipient Cost Sharing
     We also conducted a cost-sharing audit at a Southern university that received
two NSF awards requiring cost sharing of $2.9 million, for which the university
claimed $3.2 million. Of this amount we found $466,645 of unallowable and
unsupported cost sharing for salaries, fringe benefits, indirect costs, and subaward
expenses resulting from non-compliance with Federal requirements. Specifically, the
university claimed $414,477 of subaward costs that were not supported by
documentation. The university did not have an adequate system for monitoring
subrecipients’ cost sharing and had not included a clause in its subaward contract
specifying subrecipient responsibilities for contributing, accounting for, documenting,
and reporting required cost sharing to the university.
      The university also claimed $26,458 for staff salaries that were not supported by
time cards, and $10,845 and $14,865 for unallowable fringe benefit and indirect
costs. Additionally, the university did not accumulate cost sharing in separate accounts,
relied on financial information that was not derived from its official accounting records,
and did not have a system to provide for safe storage of all time-keeping records for
the required three years. In seven cases, either the university did not submit required
annual cost sharing certifications to NSF or an independent Authorized Organizational
Representative did not sign the certifications. Because the university provided cost
sharing greater than the NSF award required, it met its cost sharing on one of the
awards. However, it had a shortfall of $239,805 on the second award (although the
university still had time to address the shortfall prior to award expiration). As a result
of subrecipient monitoring inadequacies, unsupported costs, and lack of cost-sharing
certifications, NSF program officers had less assurance that program objectives funded
by cost-sharing requirements were being met.
     We recommended that NSF ensure that the university develops and implements
1) written policies and procedures for monitoring subrecipient cost sharing and
providing the annual cost-sharing reports certified by an Authorized Organizational
Representative, and 2) a system that tracks cost sharing in separate accounts and
provides for the retention of time-keeping record for three years from the date of the
submission of the final project report. The University agreed to implement two of
our recommendations but did not agree that its monitoring of subrecipient cost sharing
was inadequate. We have forwarded the audit report to NSF’s Division of Acquisition
and Cost Support for audit resolution.

Three Cost Sharing Audits Resolved
     During this reporting period, NSF resolved three audits with cost-sharing findings
that were previously reported in our March 2002 Semiannual Report (pp. 23-28). In
two of the audits, we found that the institutions depended on a flawed accounting
system for tracking cost sharing:


                                                                                             21
Audits & Reviews




                    • At a western state university campus NSF funded 30 awards with $2.3 million
                      required cost sharing. We found that the university did not have a system to
                      track, document, certify, and report the amount of cost sharing it had contributed
                      to NSF awards. For example, the university commingled cost sharing expenditures
                      with other costs in department cost accounts. Also, to support $522,025 of
                      claimed cost sharing for faculty salaries, the university provided documentation
                      that was certified up to six years after-the-fact. We recommended NSF verify
                      that the university had implemented adequate award management controls and
                      accounting systems to track, document, certify, and report its cost-sharing
                      obligations in accordance with NSF and Federal award requirements. NSF found
                      that the university’s revised cost-sharing policies and procedures would, if properly
                      implemented, address the deficiencies. In one year NSF will review the revised
                      cost-sharing system to ensure compliance with Federal administrative
                      requirements.
                    • A northeastern university also commingled cost-shared expenses with other costs,
                      and as a result overcharged NSF $48,408. During audit resolution, NSF
                      determined that the university had adjusted its unbilled award costs to correct
                      for the overcharge but that the university’s accounting system still needed
                      improvements. Thus, NSF advised the Office of Naval Research (ONR), the
                      university’s cognizant agency, to follow up on the university’s attempts to fully
                      automate its accounting system. Finally, we found that the university’s time and
                      effort reporting system did not comply with Federal requirements for after-the-
                      fact certification. During audit resolution ONR agreed that during its next review
                      of the university, it would examine the compliance of university’s time and effort
                      reporting system with Federal requirements for after-the-fact certification.
                    • A college in the central U.S. received an $186,810 award from NSF requiring
                      cost sharing of $515,000. The college claimed the total amount of required
                      cost-sharing, but we found that $446,446 was unallowable because the funds
                      were spent for fiber optics and library initiatives unrelated to the project. NSF
                      eliminated this cost-sharing requirement because it concluded that the NSF
                      program officer for this award had erroneously accepted both unrelated initiatives
                      as part of promised cost sharing.

                   Urban School District Reviews
                        In the March 2002 Semiannual Report (page 36), we reported that our work in
                   progress included audits of urban school districts awardees. In fiscal year (FY) 1999,
                   NSF established its Urban Systemic Program (USP) in science, mathematics, and
                   technology education through the merger of two education programs: the Urban
                   Systemic Initiatives (USI) Program and the Comprehensive Partnerships for Science
                   and Mathematics Achievement. Through this combined effort, NSF seeks to stimulate
                   interest, increase participation, improve achievement, and accelerate career
                   advancement and success of all students of the participating urban school districts.

          22
                                                                  OIG Semiannual Report September 2002




In August 2000, NSF had 24 active USP/USI awards ranging in value from $1.2
million to $15.1 million. The estimated total value of the 24 active awards was
approximately $248.9 million.
     Because of NSF’s significant investment and the fact that prior audits of these
types of awardees identified significant questioned costs and compliance and internal
control problems, we initiated an audit of eight of 24 USP awards. Together these
eight awards represent $120.5 million or 48 percent of the $248.9 million active
USP/USI awards as of August 2000. Currently, we have
completed four of the audits.
      We found that two of the four awardees had
adequate systems of internal control for administering
their NSF awards and appropriately claimed costs
allowable under NSF and Federal requirements.
However, the other two school districts had deficiencies
in their internal control systems for cost sharing, payroll,
and participant support costs.
      Cost Sharing. Federal guidelines require that cost
sharing is (1) verifiable from the recipients records, (2)
not funded by other Federal grants, and (3) necessary
for the accomplishment of the program objectives.
However, the cost sharing amounts claimed by two
school districts were not verifiable from their records
because some of the amounts were based on budgeted               Ms. Christine Lewis, audit program specialist,
rather than actual costs and the allocation methods used        retired in November after 36 years of service to
                                                               the Federal Government, 30 of which were spent
were not documented. Also, the claimed cost sharing
                                                                with the NSF Office of Audits. Ms. Lewis’ office
inappropriately included costs borne by other Federal          management skills, initiative, and diligence have
grants, as well as expenses related to the school districts’    contributed greatly to the efficient operation of
ongoing programs rather than the specific objectives of          the Audit Office. She shared her institutional
the NSF award. As a result, for the first school district     memory    and experience with all staff who needed
                                                                   her help, and will be missed for her warm
$9.5 million, or 100 percent of its cost sharing was not
                                                               personality and friendship. We wish her a long,
supported and was at risk of not being met before the                        and happy retirement.
expiration of the grant. In the case of the second school
district, twenty-four percent of the total claimed cost
sharing or $1.7 million, was not allowable. However, the amount was not questioned
because the school district had other allowable cost sharing expenditures sufficient to
meet the award requirement. This condition occurred because the school systems
did not have written policies and procedures for accounting and reporting of cost-
sharing for the NSF awards, and the responsible awardee staff did not understand
Federal requirements for developing and maintaining appropriate records and
documents to support the claimed cost sharing. The awardees agreed with our findings
and recommendations and issued written procedures for the administration of cost
sharing.


                                                                                               23
Audits & Reviews




                        Payroll Records. Federal requirements state that salary and wages will be
                   supported by time and effort reports. While one school district required that its
                   Project Director review and certify time records, we found that the Project Director
                   did not perform this review. As a result, a large percentage of the time records
                   supporting the $2.8 million in salaries and wages claimed on the NSF award were
                   not available or were incomplete. Only by conducting extensive interviews with the
                   school district’s staff were we able to confirm the reasonableness of the labor charges.
                   We recommended that the awardee adhere to its existing policy that requires the
                   completion and proper review of employee time and effort documentation as a basis
                   to certify the payroll charges. The awardee agreed to adhere to its policy.
                         Participant Support. NSF requires that funds provided for participant support
                   may not be used by grantees for certain expenses not specified by NSF at the onset of
                   the award without specific prior approval of the cognizant NSF program officer.
                   However, participant support funds totaling $616,048 were used by one school district
                   to purchase technical software packages, although the NSF program officer disapproved
                   the awardee’s request. We recommended that the awardee adjust its accounting records
                   to reimburse the award for the unallowed software costs of $616,048 and develop
                   and implement procedures that will ensure that only allowed and authorized costs
                   are charged to NSF awards. The awardee agreed with our recommendations and
                   indicated that it has taken corrective action.

                   Community Colleges Audits
                        In the March 2002 Semiannual Report (page 37), we reported that our work in
                   progress included audits of community college awardees. Community colleges
                   historically have received approximately $30 to $40 million in annual NSF funding,
                   and the agency plans to increase funding to these institutions in the future.
                        As was the case with urban school districts, prior audits of community colleges
                   have identified questioned costs and grant accounting control weaknesses. To assess
                   the current extent of these problems, we initiated audits at 13 community colleges in
                   FY 2002 that had received 75 NSF awards totaling $44.8 million. The objectives of
                   the audits were to determine whether costs charged to the NSF awards by the
                   community colleges were allowable, allocable, and reasonable, and if the community
                   colleges had adequate systems of internal controls in place to properly administer,
                   account for, and monitor NSF awards in compliance with NSF award terms and
                   conditions and other Federal requirements.
                        We have completed four of the 13 community college audits, and identified
                   significant weaknesses in some of the colleges’ systems for accounting for and
                   administering a total of $9.8 million in NSF grants. As indicated in the following
                   table, the colleges had particular problems in subaward monitoring, labor effort
                   reporting, procuring of consulting services, and accounting for indirect costs. Together
                   these cost categories represented $6.1 million of the total $9.2 million of costs claimed


          24
                                                                  OIG Semiannual Report September 2002




by these four colleges. The reason for these problems was that the awardees were not
aware of the award and Federal requirements. If the community colleges fail to
address these instances of noncompliance and internal control weaknesses, similar
problems are likely to recur on other existing or future NSF awards to these institutions.
      Subaward Monitoring. Federal guidelines state that awardees are responsible
for managing and monitoring each project, program, subcontract, function or activity
supported by the award. We found that two of the community colleges did not
require subrecipients to submit documentation supporting their claims for
reimbursement. Also, one of these awardees did not review the audited financial
statements of its subrecipients to ensure no accounting or other grants management
problems were reported. These two awardees claimed $3.3 million in subcontract
costs, or 43% of their total claimed costs. Failure to obtain supporting documentation
and review audit reports of subcontractors reduces the college’s ability to manage
expenditures and activities by subrecipients, which are supported with NSF funds.
We recommended that the colleges establish adequate subrecipient monitoring
procedures. In response, both colleges agreed to evaluate their current procedures.
    Labor Effort Reports. Federal guidelines stipulate that salary and wages will be
supported by time and effort reports. Two community colleges did not require that



                  Common Community College Award Problems
   Awardee        Claimed       Questioned      Inadequate       Lack of     Consultant       Indirect
                   Costs          Costs          Subaward         Labor      Verification       Cost
                     $              $           Monitoring        Effort    of Hourly Pay      Issues
                                                                 Reports   and/or Selection
                                                                              Problems
  Western         4,803,713          24,578          X              X              X               X
  Community
  College

  West Coast      2,553,330          51,842          X              X              X
  Community
  College

  North Central   1,000,000          39,296                                                        X
  Community
  College

  Southeastern      825,720               0                                                     N/A
  Community
  College

  Total           9,182,763         115,716




                                                                                              25
Audits & Reviews




                   all salary and wage costs be supported with after-the fact labor activity reports, which
                   indicate the level of effort expended on the award. Therefore, the colleges were not
                   able to provide assurance that the salary and wages and the related fringe benefits
                   charged to NSF were allowable. One awardee has amended its labor effort reporting
                   procedures, and the other awardee agreed to implement the procedures necessary to
                   meet the requirements.
                         Consultant. Federal guidelines stipulate that awardees should document its
                   procurement methodology and the basis for contractor selection, and perform a cost/
                   price analysis on the proposed contract amount. Two community colleges did not
                   document the selection process they used in awarding consultant agreements. One
                   of the colleges used several consultants that were specifically named in the award
                   proposal, but was not aware of the requirement to document the selection process.
                   Also, one of the colleges did not have policies in place to perform a cost/price analysis
                   of the consultant services. Without documenting the selection process or performing
                   a cost/price analysis, it is difficult for the college to establish that a fair and unbiased
                   process took place or that it obtained the best price for services obtained. Both
                   colleges agreed to evaluate their procedures.
                         Indirect Cost. Federal guidelines stipulate that awardees should calculate indirect
                   costs by applying the Federal negotiated indirect cost rate to the direct cost base.
                   One college claimed $5,920 of indirect costs on unallowable direct costs. Another
                   college claimed $7,491 more indirect costs than were allowable under the rate and
                   the direct cost base provided for in the grant agreement. NSF management resolved
                   this finding during this reporting period.


                   Other Reports
                   Controls Over Credit Card Programs
                        During this semiannual period, we completed two audits of NSF credit card
                   programs: purchase cards and travel cards. While agencies can receive rebates based
                   on the volume of charges on these cards, the cards also pose financial risks to both
                   the agency and the individual employee. Our audits examined the controls NSF has
                   in place over its purchase and travel card programs. We found that, while NSF is
                   taking action to improve its management of both of these credit card programs,
                   supervision and oversight controls need to be strengthened.
                        In our audit of NSF’s purchase card program, we found that NSF has taken
                   several actions to improve the purchase card program in response to recommendations
                   in a previous OIG report.3 Purchase cards are issued to certain employees for the

                   3
                    Internal Controls Over Purchase Card Use in BIO Need Improvement, OIG Report Number 00-2008,
                   September 29, 2000.


          26
                                                                  OIG Semiannual Report September 2002




purpose of paying for purchases for the official business use of the organization. Because
the financial responsibility for paying the credit card balance rests with the agency, it
is important that these purchases be independently reviewed and approved as
authorized for payment. However, we were unable to determine in a number of cases
whether the officials responsible for approving the credit card purchases were
performing the required independent review. Without this key program control,
potentially abusive transactions can occur and go undetected. Furthermore, we found
instances of irregular transactions, as well as lax security over custody of the credit
cards. We recommended that NSF further strengthen its internal controls over the
purchase cards to include providing specific guidance and training for personnel
responsible for reviewing and authorizing purchases for payment, and reemphasizing
to cardholders their responsibility to protect and secure the purchase cards.
      In our audit of NSF’s travel credit card program, we found that while NSF is
effectively monitoring and managing delinquent travel card accounts, its policies and
practices do not yet address monitoring the unauthorized use of travel cards. Travel
cards are issued to employees to pay for official government travel expenses such as
hotels, transportation costs, and meals, during periods of authorized travel, and
financial responsibility for the outstanding credit card balance rests with the individual
employee. NSF has implemented a proactive process to monitor delinquent travel
card accounts and establish a salary-offset program for those employees whose account
balances are severely delinquent. Because these delinquencies can negatively affect
the amount of the credit card rebate the agency receives, as well as harm the cardholder’s
personal credit rating, the proactive monitoring program is beneficial to both the
agency and its employees.
      However, we also found that NSF does not have a similar program to monitor
unauthorized use of government travel cards. Our audit indicates that some employees
have used their government travel cards for automated teller machine (ATM)
withdrawals during periods when they were not on authorized travel. These actions
not only violate Federal ethics laws and the credit card agreement, they also artificially
inflate the amount of the credit card rebate the agency receives. We recommended
that NSF expand its oversight of travel card activity to include detecting and addressing
employee’s unauthorized use of travel cards.

Workforce Planning
      The Senate Subcommittee on VA, HUD, and Independent Agencies requested
that the OIG analyze the adequacy of the agency’s staffing and management plans in
light of the efforts to expand NSF over the next five years. We found that although
NSF does not currently have a comprehensive workforce plan, it is contracting for a
multi-year business analysis of its operations that will include a human capital
management plan identifying its future workforce requirements.




                                                                                             27
Audits & Reviews




                         Our review of the statement of work for the contract indicated that it is thorough
                   except that it provides for neither a human resource planning capability within NSF
                   nor a process for monitoring, evaluating and revising the plan on an ongoing basis.
                   Further, given the extensive scope, cost, and duration of the contract, estimated at
                   approximately $15 million over three to four years, we believe that NSF needs to
                   take a more active role in monitoring the contractor than is suggested in the statement
                   of work. In response, NSF promised to play an active role in monitoring the contract
                   and has since established a set of working groups with representatives from many
                   areas of the Foundation to manage the major aspects of this contract. In addition,
                   the Advisory Committee for Business and Operations, an external panel, is advising
                   NSF on issues of concern. The agency also noted that the COTR for this contract
                   spends about two thirds of his time monitoring and overseeing the activities of this
                   contract.

                   Concerns Raised About NSF Acceptance
                   of Certain Travel Reimbursements From Awardees
                         NSF initiated an Industry/University Cooperative Research Centers (IUCRC)
                   program in 1973 to develop long-term partnerships among government, academia,
                   and industry. NSF provides small awards of $50,000 to $100,000 per year for up to
                   ten years, and Center members (including both university and business partners)
                   provide additional support for Center research projects. Each Center has an Industrial
                   Advisory Board (IAB) that meets semiannually to review activities and select new
                   research projects. For many years NSF program officers have attended IAB meetings
                   to facilitate administration of the IUCRC program, and Centers have used members’
                   fees to reimburse NSF for the associated travel costs.
                       We reviewed NSF’s practice of accepting travel reimbursement from IUCRC
                   awardees for program officers’ attendance at IAB meetings to determine whether
                   NSF may properly receive such payments. We found that annual receipt of
                   approximately $34,000 in travel reimbursement from IUCRC awardees, raised
                   concerns about the appearance of a conflict of interest, given NSF’s responsibility for
                   monitoring award performance and making future award decisions.
                        NSF used this method to pay for its program officers’ attendance at Centers’
                   IAB meetings because, due to a limited travel budget and other travel priorities, the
                   NSF program office was not able to pay the costs for its program officers to attend
                   the IAB meetings. Therefore, without reimbursement from IUCRC awardees, travel
                   to non-mandatory IUCRC advisory board meetings would be less likely. In addition,
                   NSF’s Office of General Counsel (OGC) had advised the agency that it could accept
                   travel reimbursement from IUCRC awardees. OGC concluded that NSF could
                   accept IUCRC reimbursements under NSF’s statutory gift acceptance authority,
                   although a decision by the Comptroller General suggests that such reimbursements
                   were not “gifts” because they were not provided “without consideration”.


          28
                                                                    OIG Semiannual Report September 2002




      We concluded that a preferable method of funding travel to IAB meetings was
for NSF to allocate part of its $15 million travel budget for its program officers to
attend the IUCRC IAB meetings. In its response, NSF disagreed that accepting
travel reimbursements from IUCRC awardees is contrary to NSF or Federal policy.
Nevertheless, NSF management indicated that it will no longer accept IUCRC
membership fees to reimburse program officers’ travel expenses to IAB meetings and
will utilize alternative NSF budget resources, including administrative cost recovery
funds from other agencies previously waived by NSF, to pay for these costs.

Indirect Cost Audits
     About one-third of all costs charged to NSF awards are indirect costs. Unlike
direct costs, indirect costs are not tied to specific projects, but are allocated to NSF by
means of a negotiated indirect cost rate. When NSF provides the largest dollar value
of Federal awards to an organization, it is usually designated the cognizant agency,
responsible for negotiating and approving indirect cost rates for that organization on
behalf of all Federal agencies. NSF currently negotiates indirect cost rate agreements
with approximately 150 mostly non-profit institutions, which have received
approximately $270 million annually from NSF.
     Because non-profit institutions often have limited staff and/or experience in
administering Federal awards, we initiated audits of the indirect cost rates of ten non-
profit organizations. These organizations receive more than a total of $70 million in
funds, including more than $15 million in indirect costs. During this reporting
period we completed one of the ten indirect cost rate audits.

New England Scientific Society
Over-Recovers $240,245 in Indirect Costs
      We audited a New England scientific society’s indirect cost proposals for the
years ended 1998-2000. We found that the institution over-recovered indirect costs
totaling $240,245, or 30 percent of the total claimed indirect costs on ten NSF
awards. This occurred primarily because, contrary to Federal requirements, the society
misclassified $1.4 million of direct program costs as indirect costs. The society did
not understand that mission-related activities should be classified as direct costs, not
indirect costs. We found that clear policies and procedures are needed to ensure that
the society’s future indirect cost rate proposals accurately classify its direct and indirect
costs. In addition, we found a number of other significant problems with the society’s
indirect cost accounting process:
 • The institution did not have an adequate system to track, document, and certify
   the labor effort of staff who allocated their time to both direct and indirect activities,
   resulting in $806,180 of unsupported salaries and wages in the indirect cost pools
   used to calculate proposed indirect cost rates.



                                                                                                29
Audits & Reviews




                    • The society did not calculate a separate indirect cost rate for its research center in
                      Washington, D.C., which may incur indirect costs at a different rate from the
                      one at which the society’s headquarters office in New England incurs indirect
                      costs.
                    • The society submitted its indirect cost proposal to NSF only every second year,
                      thus preventing NSF from taking timely corrective action.
                         Accordingly, we made several recommendations to improve the society’s written
                   policies and procedures for classifying direct and indirect costs and its processes for
                   tracking, documenting, and certifying monthly labor distributions reports. We also
                   recommended that NSF require the society to develop a separate indirect cost rate
                   for its off-site Washington D.C. location, and to submit indirect cost proposals to
                   NSF annually.
                        Since the society’s indirect cost rate was a fixed rate, which is not subject to
                   adjustment, NSF may not recover the overcharged costs. However, by addressing
                   the accounting weaknesses in the society’s indirect cost calculation process, NSF can
                   better ensure the accuracy of future indirect cost charges. We estimate that based on
                   the society’s approximately $1.2 million annual expenditures of NSF funds, the
                   implementation of our recommendations could save NSF as much as $444,103 in
                   indirect costs over the next five years.
                         The institution disagreed that it had misclassified $1.4 million of direct program
                   costs as indirect costs, that its timekeeping system was inadequate, and that it needs
                   to modify its system for recording grant costs. We have forwarded these matters to
                   NSF’s Division of Acquisition and Cost Support for audit resolution.

                   A-133 Related Reviews
                         Non-Federal entities are responsible for arranging A-133 audits and submitting
                   the reports through the Federal Audit Clearinghouse within nine months after the
                   end of their fiscal year. Our office receives and performs a limited review of the A-
                   133 reports submitted directly to us by the Federal Audit Clearinghouse and those
                   that are continuing to be submitted directly from the auditees. During these reviews
                   we seek to identify trends in the nature of the independent auditor’s findings that
                   suggest systemic weaknesses in the awardee’s award administration and compliance
                   program and/or policy implications for NSF program management. In this reporting
                   period, we reviewed 84 A-133 audit reports with NSF expenditures of $958.8 million
                   dollars for fiscal years 1997 through 2001. In total the auditors questioned $172,231
                   of NSF-funded costs and cost sharing claimed by award recipients. The majority of
                   reports were for 2000 and 2001. After our review, we forwarded 69 reports with
                   questioned costs, internal control weaknesses, and/or findings of non-compliance
                   with Federal laws and regulations to NSF’s Division of Acquisition and Cost Support
                   for audit resolution.



          30
                                                                 OIG Semiannual Report September 2002




     Our office also continued to examine Management Letters, which report internal
control weaknesses that are generally less significant than those reported in the A-
133 report, but still require management’s attention. Our review of 35 Management
Letters this reporting period identified issues related to grantees’ financial management
systems, policies and procedures, as well as business continuity plans, information
technology security and other IT issues. We forwarded the Management Letters to
NSF’s Division of Contracts, Policy and Oversight to inform them of internal control
weaknesses among NSF awardees. In addition, we plan to use this information to
identify systemic weaknesses for future audits and reviews.


Corrective Action
Prompted by Previous Audit Findings
Eastern Not-For-Profit Improves Internal Controls
and Compliance Over Administering NSF Awards
      In our March 2002 Semiannual Report, we reported on an audit of an eastern
not-for-profit organization whose purpose is to promote and conduct geophysical
investigations of the earth’s interior. We identified significant internal control and
compliance problems in the organization’s administration of its two $104.6 million
cooperative agreements. NSF verified that corrective actions have been taken to
resolve all recommendations. Specifically, the organization reported that it would
retain all accounting records to support claimed costs in the future for the full time
required under the NSF award agreement. Also, the organization has written policies
and procedures to enhance its oversight of subrecipient monitoring, and revised its
time and effort reports to comply with Federal requirements. Finally, NSF agreed to
review and negotiate indirect cost rates with the organization annually to ensure that
the accounting of direct and indirect costs is proper.

Mid-Atlantic Education Consultant Offsets
Disallowed Costs, Improves Accounting Procedures
     In our September 2001 Semiannual Report (pp. 16-18), we reported on three
NSF contracts issued to a mid-Atlantic education-consulting firm. Of $6.4 million
in costs and fees claimed by the contractor, we questioned $677,556 primarily for
over billed indirect costs, costs related to consultants who were not formally approved
by the NSF contracting office through contract modifications, and various unsupported
expenses. We also reported another $191,484 in indirect costs as unresolved because
the contractor had not made indirect cost data available to NSF or to us for our
review at the time of audit. In addition, we reported a number of other weaknesses in
the contractor’s financial management processes.



                                                                                            31
Audits & Reviews




                         Of the total $869,040 in questioned and unresolved claimed costs, NSF allowed
                   $584,387 after review of additional documentation related to indirect, consultant,
                   and other costs. NSF disallowed the remaining $284,653, but allowed the contractor
                   to use unclaimed indirect costs and unpaid fees on contracts as a form of repayment.
                   The contractor also provided all required proposals for final indirect cost rates to
                   NSF that were not previously submitted. They also reported to NSF that as a result
                   of the audit, systems were improved to minimize the chance of claiming unallowable
                   costs. Invoices are now prepared directly from data in the accounting system, and
                   improved timekeeping procedures have been established.

                   NSF Implements Procedures to Oversee Antarctic
                   Contractor’s Use of Funds for Major Research Equipment
                        NSF contracts with a few corporations to provide the logistics, operations,
                   engineering and construction support for the United States Antarctic Program. In
                   our March 2002 Semiannual Report (page 31), we reported that a former contractor
                   had improperly used approximately $11.9 million in Major Research Equipment
                   (MRE) funds (that are restricted by NSF for use on capital expenditures) to pay for
                   operations and contract closeout costs. The contractor returned the funds and NSF
                   subsequently reimbursed the contractor for its allowable operations and contract
                   closeout costs. In the audit, we also questioned $23,821 in fringe benefit costs. NSF
                   indicates that it accepted the contractor’s adjustment for this amount during contract
                   closeout.
                        The practice of the former contractor has been discussed with the new contractor
                   to prevent future misuse of MRE funds. For NSF’s current contract, it revised the
                   procedures for the request, payment, and reporting of MRE funds, and ordered the
                   current contractor to refrain from commingling funds from various appropriations
                   or using them for purposes other than the specific purpose for which they were
                   identified. Additionally, to ensure that the contractor does not overspend, NSF now
                   requires the current contractor to submit requests for drawing down funds to program
                   and administrative officials that are supported by a detailed report of the funds
                   obligated, requested and the remaining balances by appropriation type. At NSF’s
                   request, we have included an audit of the current contract from its inception in our
                   FY 2003 Audit Plan.


                   Work In Progress
                   Quality Control Reviews of A-133 Audits
                        Non-Federal entities that expend $300,000 or more in a year in Federal awards
                   are required under the Single Audit Act of 1984, as amended, to have a single or
                   program-specific audit conducted for that year. OMB Circular A-133, Audits of
                   States, Local Governments, and Non-Profit Organizations, provides implementing

          32
                                                                     OIG Semiannual Report September 2002




guidance for conducting these audits of states, local governments, and non-profit
organizations expending Federal awards. Reports prepared by independent auditors
in accordance with this Circular are referred to as A-133 audits. The purpose of these
audits is to provide Federal agencies with information on how well award recipients
manage and spend Federal funds. NSF relies on the A-133 reports for making award
decisions and for ensuring post award accountability of its funds.
     In its response to the FY 2001 Independent Auditors Report, NSF wrote that as
part of its “post award monitoring procedures” it reviews OMB Circular A-133 audit
reports. Given that NSF makes $4.5 billion in grant awards each year, the quality of
A-133 audits is a critical element to NSF in meeting its post award oversight
responsibilities. However, recent Quality Control Reviews (QCR) conducted by
other Federal agencies raise concerns about the quality of audits conducted pursuant
to the Single Audit Act. Some have identified significant audit quality problems and
have reported that these problems may be pervasive. In addition, the extent of audit
coverage NSF awards receive in these audits is unclear since NSF awards are generally
small relative to other Federal awards.
      Consistent with the OIG’s responsibilities under the Single Audit Act and to
address quality concerns in a process that is material to NSF’s post award administration
procedures, the OIG has identified this area as a new strategic focus of its annual
audit plan. In FY 2002, we conducted one QCR and will expand our QCR efforts in
FY 2003 to review the audits of three additional organizations for which NSF is the
largest Federal funding agency. Our goal is to complete 18 QCRs by 2007. Our
office also is participating in a recently formed Federal OIG working group to explore
the practicality of conducting quality control reviews of a statistically significant sample
of A-133 audits. This statistical assessment is part of a longer-term Federal OIG
effort to assess the extent to which agencies can rely on the A-133 audits to provide
assurance that awardees are properly accounting for and managing Federal funds.

Committees of Visitors
     NSF relies on committees of external experts to provide evaluations of its scientific
programs. NSF’s Committees of Visitors (COVs) provide program assessments that
are used both in program management and in performance reporting. This audit will
examine if NSF is evaluating and using these committee reports to better manage its
programs and operations and whether the process for developing the reports and the
use of the reports can be improved.

Award Administration Best Practices
     To assist NSF in its efforts to assess scientific progress and ensure effective financial
and administrative management of its awards, we are conducting a best practices
review. We are studying how seven Federal, state, and private grant-making
organizations administer their awards, and document their management and oversight


                                                                                                 33
Audits & Reviews




                    policies and practices. We are meeting with representatives from these organizations
                    to better understand their policies and what they consider to be their best practices.

                    NSF Awards to Foreign Organizations
                          Over the past five years, NSF has awarded $60.5 million to 24 foreign
                    institutions. Because foreign entities are less likely to be aware of U.S. requirements,
                    have different accounting practices, and sometimes receive less NSF oversight, we
                                                      consider these foreign entities to be at increased risk
                                                      for financial problems and lack of compliance with
                                                      award requirements. For example, in a recent OIG
                                                      audit of an international research institute, we found
                                                      for example that the organization inappropriately
                                                      invested NSF funds in the stock market.
                                                            Our audit will evaluate the adequacy of NSF
                                                      processes and controls for overseeing and monitoring
                                                      foreign institutions and determine whether foreign
                                                      grantees are administering their awards in accordance
                                                      with award terms and conditions. Over the next
                                                      year we plan to review four foreign grantees that
                                                      received $46 million or 76 percent of the total NSF
  OIG auditors visit European based institute that    foreign funding.
               receives NSF funding.




           34
                                                                         Investigations


     T
             he Office of Investigations handles allegations of fraud,
             waste, abuse, and mismanagement in NSF programs and
             operations, as well as allegations of research misconduct
associated with NSF proposals and awards. We work in partnership
with NSF, other agencies, and awardee institutions to resolve issues
whenever possible. As appropriate, we refer our investigations to the
Department of Justice (DOJ) or other prosecutorial authorities for
criminal prosecution or civil litigation, recommend administrative action
in research misconduct cases to NSF’s adjudicator, the Deputy Director,
and in some cases recommend debarment to NSF’s Director.
      In this Semiannual Report, we present an overview of investigative
activities, including civil and criminal investigations, significant
administrative cases, and focused reviews. We also report on the
significant increase in verbatim plagiarism cases, explain how allegations
of plagiarism are evaluated in this office, and discuss our review of NSF’s
SmartPay purchase cards.


Summary Of Case Activity
      Allegations of wrongdoing are classified according to the issues
raised. Where there is insufficient evidence for initial classification, the
matter may be handled as a preliminary file. During this semiannual
period we received 149 allegations: 121 that were initially classified as             HIGHLIGHTS
preliminary files; 18 administrative cases; and 10 civil/criminal cases.
We closed 110 of the preliminary files during this period: 106 after           Summary
determining there was no justification for opening either an                   of Case Activity      35
administrative or civil/criminal case; 3 became civil/criminal cases; 1
was classified as an administrative case. In addition, we received and
closed 3 computer incident cases. We generated a sufficient number of          Civil and Criminal
preliminary files involving SmartPay charges, to check for a broad range       Investigation         36
of possible fraud schemes.
      We closed 18 civil/criminal cases that involved allegations of           Administrative
violations of Federal laws, such as false statements, embezzlement, or         Investigations        39
theft. When we find evidence that suggests wrongdoing, we refer the
case to the DOJ for prosecution. We referred two cases this period to          Other Investigative
DOJ. Investigative actions this period resulted in the return of $327,973      Activities            43
to the government.


                                                                               35
Investigations




                       We closed a total of 29 administrative cases: 24 prior to an investigation, and 5
                 after an investigation. The majority of our closed administrative cases involved
                 allegations of research misconduct. Under our research misconduct regulation, these
                 cases begin with an inquiry to determine whether the allegation has sufficient substance
                 to warrant an investigation. If it appears that research misconduct has occurred, we
                 send a report to NSF’s Deputy Director for adjudication.


                 Civil and Criminal Investigations
                 NSF Enhances Security of Social Security Numbers
                       In our September 1997 Semiannual Report (pp. 30-31), we discussed a case in
                 which an NSF employee used another employee’s social security number (SSN) to
                 obtain multiple fraudulent credit card accounts. The case prompted us to recommend
                 that NSF minimize its use of SSNs as
                 identifiers. In response, NSF issued a policy
                 to NSF staff on the appropriate use and
                 confidential handling of SSNs. However,
                 in our March 2002 Semiannual Report (pp.
                 40-41), we reported that the SSNs of
                 Principal Investigators (PIs) submitted to
                 NSF, and then provided by NSF to a
                 contractor as part of a registration process
                 for a NSF program, were stolen.
                      As a result of these thefts, we sent a
                 memorandum to the NSF Deputy Director           Dr. Boesz congratulates Joe Pinto on
                 highlighting the need to implement controls       receiving the PCIE/ECIE Award for
                 and policies to avoid theft of SSNs in the          Excellence in Investigations.
                 future. Since that time, a GAO Report
                 (GAO-02-352) and pending legislation (S. 2629) have raised the profile of the issue
                 of SSN security and identity theft. The legislation introduced in the Senate would
                 require assessment, independent third-party review, and Inspector General reporting
                 on privacy and data protection policies of Federal agencies.
                      In response, the Deputy Director described steps NSF has undertaken to enhance
                 the internal security and confidentiality of SSNs, limit NSF employees’ access to
                 SSNs, and increase security and oversight of contractor use of SSNs. All of these
                 actions have been implemented except for a change to the FastLane system, which
                 will be implemented in the first quarter of 2003. These actions should result in
                 greater awareness of the risk of theft of SSNs and other personally identifiable
                 information, while also limiting access to this information.




        36
                                                                 OIG Semiannual Report September 2002




SmartPay Purchase Card Review
      As discussed in our March 2002 Semiannual Report (page 41), we reviewed a
large number of NSF SmartPay purchase card transactions for indications of fraudulent
purchases. This initiative was prompted by several recent cases of NSF purchase card
and travel card fraud (Semiannual March 2000, page 22; Semiannual March 2001,
page 33). During the course of our review, several reports issued by GAO (GAO: 02-
676T; 02-732; 02-1041) about misuse and fraud in the SmartPay system increased
Congressional interest in the issue.
     Our review focused on transactions seemingly unrelated to NSF business (e.g.,
purchases at toy stores, clothing stores, sports stores, local shopping malls, and credit
card telephone calls). Using a database of all transactions, we screened all purchases
made between October 2000 and October 2001. We also reviewed selected
transactions involving entertainment and travel that could potentially violate Federal
regulations. Finally, we reviewed purchases of $1,500 or more from computer vendors
to capture transactions involving complete computer systems.
      Although we discovered no instances of fraud, we found potential internal control
weaknesses involving card security, cardholder and approving-official training, proper
recording of current cardholders, and split or otherwise improper purchases. In
addition, although NSF has a policy requiring the attachment of identification tags
to all computers, not all computers purchased with SmartPay cards were tagged.
Also, the agency has no formal policy regarding the control tagging of Palm Pilots
and Blackberries, which because of their size are particularly susceptible to theft. We
referred these findings to our audit staff for follow-up.

Scientist Convicted for False Statements and Fraud
     In our September 2001 (pp. 41-42) and March 2002 (p. 43) Semiannual Reports,
we discussed a case in which a bioengineering professor at a South Carolina university
submitted a fraudulent final report for an NSF Small Business Innovation Research
(SBIR) Phase I grant to his wife’s private company. In fact, no work was done under
the award, and the final report was copied verbatim from a Master’s thesis written by
one of the professor’s students before the grant was awarded. On the basis of the
Phase I final report, NSF had funded a Phase II award for the same project.
       We referred the case to the DOJ for criminal prosecution. The Phase II grant
was terminated, and the professor repaid all of the grant funds ($198,975) to NSF
and made an unrestricted donation to NSF of $27,500. The professor pled guilty in
U.S. District Court to one count of violation of 18 U.S.C. § 1001 for submission of
false information to the Federal government, and on June 20, 2002, he was sentenced
to 5 years probation, a $15,000 fine, and a $100 special assessment fee. Pursuant to
an administrative settlement with NSF, the professor is voluntarily excluded from
participating in grants or contracts with the Federal Government until October 1,
2004.


                                                                                            37
Investigations




                 Participants In Two Fraud Schemes Are Debarred
                       In our March 2002 Semiannual Report (page. 42-43), we discussed a case
                 involving a university that reported an allegation that an employee of an NSF-funded
                 research center had submitted fraudulent travel reimbursements. After a joint OIG-
                 FBI investigation, the employee admitted to the offense and pled guilty to violation
                 of 18 U.S.C. § 666 for theft/embezzlement from a program receiving Federal funds.
                 As part of the plea agreement, the employee paid restitution in the amount of
                 $19,871.63. On August 23, 2002, the employee was sentenced to three years
                 probation and 150 hours of community service. NSF’s Deputy Director informed
                 the subject of a proposed debarment for a period of three years based on the criminal
                 conviction and offenses determined to be an extremely serious breach of the public
                 trust.
                       In the March Semiannual Report (pp. 42-43), we also discussed a case in which
                 a laboratory technician/administrative assistant fraudulently endorsed and cashed 40
                 payroll checks payable to former temporary employees. Four Federal agencies lost a
                 total of $50,484.61 over a 16-month period as a result of this scheme. The university
                 calculated the charges, corrected the payroll records, and removed all associated charges
                 from the grant accounts. According to the university’s report, the subject fraudulently
                 diverted $14,599.20 of NSF grant funds. Because the employee resigned,
                 acknowledged responsibility for the fraud, and arranged to pay restitution, the Assistant
                 U.S. Attorney declined to prosecute the case in lieu of administrative action.
                       Consistent with our recommendation, the NSF Deputy Director debarred the
                 subject for a period of two years. The Deputy Director explained that the theft
                 reflects adversely on the university employee’s integrity, honesty and responsibility.
                 Debarment is effective throughout the Executive Branch of the Federal government,
                 precluding the individual from having any substantive control or critical influence
                 regarding Federal funding.

                 Scientist’s Use of NSF Logo Falsely Implies Affiliation with NSF
                      A former biology professor contacted OIG offering information about fraud in
                 NSF’s peer review system. We received many, lengthy e-mails from the professor,
                 before he finally referred us to his website for a full explanation of the evidence of
                 fraud. In both the e-mails to our office and on his website, the professor expanded
                 upon his allegations of fraud and claimed that NSF had asked him to submit a proposal
                 to receive funding to investigate his fraud allegations. We carefully reviewed all of
                 the information provided by the professor and concluded there was no credible
                 evidence to support any of his allegations or claims.
                      However, the professor’s use of the NSF name and logo on his website raised
                 concerns. The domain name included “NSF”, and the NSF logo was prominently
                 displayed at the top of every page in a manner clearly intended to convey the impression
                 that his site was affiliated with NSF. NSF provides logo graphics on its website “for


        38
                                                                 OIG Semiannual Report September 2002




use by members of the public who wish to provide a link to an NSF website or to
acknowledge NSF assistance,” but the professor’s use of the logo was not consistent
with this permission.
      The professor also used the logos of the Department of Justice (DOJ) and
Department of the Treasury. He asserted that he had entered into a contract with
Treasury to represent them in carrying out his investigation at NSF’s request, and in
coordination with the NSF OIG as well as DOJ. We advised the professor that there
are Federal statutes prohibiting the use of government seals/logos to misrepresent
government affiliation. Although he was prohibited from using NSF’s seal/logo to
falsely present himself as affiliated with NSF, he was otherwise free to use the seal/
logo if it was made clear that he was not affiliated with NSF and otherwise complied
with applicable law.
     When the professor made no substantive change to the misrepresentations on
his website, we referred the matter to the DOJ which contacted the company that
hosted the professor’s website. After reviewing the misrepresentations on the website
and consulting its own content policy, the company closed it down


Administrative Investigations
Plagiarism Allegations
     NSF’s regulation on Research Misconduct, 45 C.F.R. part 689, states that
plagiarism is “the appropriation of another person’s ideas, processes, results or words
without giving appropriate credit.” Allegations of plagiarism (both verbatim plagiarism
and intellectual theft) consistently appear as the category of administrative allegations
we most frequently receive. Approximately 40 percent of the allegations of research
misconduct received by our office involve plagiarism¾17 percent verbatim plagiarism
and 23 percent intellectual theft. Verbatim plagiarism refers to the unattributed use
of another person’s words, while intellectual theft relates to appropriation of another
person’s ideas and/or processes, without giving credit.

Significant Verbatim Plagiarism Allegations on the Rise
       In verbatim plagiarism cases, subjects have inappropriately used text originally
appearing in textbooks, journal articles, conference proceedings, scientific proposals,
electronic media or other sources. Using text authored by others is appropriate when
it is quoted, indented or otherwise highlighted and attributed to the original author.
However, when a writer fails to properly attribute the original author’s text, s/he
violates a basic tenet of the research community by passing the words and composition
off as his/her own.
     We receive these allegations from numerous sources, most frequently from NSF’s
merit reviewers. Peers who review proposals occasionally recognize unattributed text


                                                                                            39
Investigations




                 as belonging to another author. Sometimes they recognize the plagiarized text as
                 their own. When the copied text originates from a previously submitted proposal,
                 the plagiarism violation is compounded by a possible breach of the confidential merit
                 peer review process.
                      The seriousness of the case depends upon the amount of text copied. Less
                 serious cases involve the copying of small amounts of text, and after receiving an
                 adequate explanation from the subject, generally culminate with a letter reminding
                 them that NSF expects all aspects of a proposal to maintain the highest scholarly
                 standards. In more serious cases, if the subject is unable to adequately explain the
                 copied text, the allegation is referred to the subject’s institution for investigation.
                       During this semiannual period, our office received several substantive verbatim
                 plagiarism allegations. In addition to the cases discussed elsewhere in this report, our
                 office referred verbatim plagiarism allegations to four institutions for investigation.
                 We received an investigation report from one of those institutions and expect the rest
                 to be completed, during the next semiannual period.
                      Once we receive an institution’s report, we review it for fairness and accuracy
                 and determine whether additional investigative work is required to ascertain whether
                 research misconduct (RM) occurred. If the evidence shows that the subject’s actions
                 met the definition of RM, we assess whether those actions represent a significant
                 departure from the accepted practice of the subject’s research community, and whether
                 they were committed with the requisite level of intent. If these last two criteria are
                 met by a preponderance of the evidence, then our office recommends a finding of
                 research misconduct to NSF and suggests appropriate action.

                 Evaluation of Allegations of Intellectual Theft
                     Most scientists are rigorously honest about what really matters to them, like the
                     accurate reporting of procedures or data. In other areas, however, such as disputes
                     over priority or credit, they tend to behave like the ordinary mortals they are.
                     Scientists are not disinterested truth seekers; they are more like players in an intense,
                     winner-take-all competition for scientific prestige and the resources that follow
                     from that prestige.
                                                    David Goodstein, “Scientific Misconduct”
                                                    Academe, January-February 2002
                       Understandably, scientists take umbrage when their ideas are unfairly
                 appropriated. Ideas are the currency of progress and evolution in scientific research,
                 and their theft can seem as serious to the author as financial theft. Intellectual theft
                 allegations are significantly more difficult to substantiate than verbatim plagiarism, it
                 is unusual to find that an idea has been copied exactly as it originally appeared.
                      Intellectual theft allegations often originate from scientists who feel they did
                 not receive appropriate attribution for their ideas in the publications of others or



        40
                                                                  OIG Semiannual Report September 2002




whose collaborations have dissolved. In these cases, we have found that the prevalent
view in the research community is that, once scientists share their ideas publicly,
others are free to use them as long as they provide proper attribution. Resolving
allegations of intellectual theft from broken collaborations can be particularly
problematic because the dispute among the participants involves shared nonpublic
ideas. It can be extremely difficult, if not impossible to determine from whom the
idea originated.
      In our initial evaluation of alleged intellectual theft, we assess the originality of
the allegedly copied idea in any source documents, compare the idea as presented in
the source and destination documents to determine similarity, and assess the likelihood
that the idea was taken from the source documents. To date we have encountered
only two cases of proven intellectual theft, as discussed in our March 1992 (pp. 19-
20), September 2000 (pp. 24-25), and March 2001 (pg. 26) Semiannual Reports.
However, we have encountered numerous cases that range from simple
misunderstandings to questionable or unprofessional conduct. We encourage scientists
to craft intellectual property rights agreements at the outset of their collaborative
efforts. These agreements are most effective when they allocate existing intellectual
property ownership among the collaborators and create clear understandings among
them about the use of joint intellectual property arising during their collaboration.
      With the rise of electronic information dissemination, including the publication
of papers (as both preprints and in final published form) on the web, cyber-conferences,
and the ephemeral nature of many electronic information resources, the opportunities
for plagiarism have increased dramatically. The expanding nature of information
sharing and the modes for sharing have not dulled the offense people feel when they
believe their words or ideas have been misappropriated. As the national publicity
afforded to high-profile cases of scientific misconduct raises the public’s awareness of
the problem, it also highlights the importance of having carefully crafted collaboration
agreements in place, and the value of initiating thorough and objective inquiries into
allegations.

Plagiarism in Collaborative
Proposals Submitted to Joint Agency Program
     We investigated two plagiarism cases that we determined were substantive but
could not be referred for investigation. In both cases, our initial inquiry revealed that
the proposals in question were the product of U.S.-foreign collaborations submitted
to a multi-agency program administered by the Department of State. For those
proposals assigned to NSF for review, the U.S. collaborators resubmitted the proposals
through their universities using NSF’s FastLane electronic system. As a result, each
proposal initially appeared to have been submitted and primarily authored by a U.S.
researcher. Both U.S. researchers told us that their foreign collaborators had authored
the proposals. In each case, the foreign collaborators admitted to us that they had



                                                                                              41
Investigations




                 copied the material in question without attribution or distinction.
                       We met with NSF and Department of State officials to discuss preventive
                 measures for such U.S.-foreign collaborative programs. Because the announcement
                 for the joint agency program failed to articulate any scholarly or scientific standards
                 for proposals, we suggested that the announcement be enhanced along the lines of
                 NSF’s Grant Proposal Guide. The interagency board issued a new announcement
                 that incorporates specific language about plagiarism.

                 Actions by the Deputy Director
                       Scientist Fails to Observe NSF Requirements Imposed Following Misconduct
                 Finding. In our September 1997 (pp. 36-37) and March 1999 (p. 19) Semiannual
                 Reports, we described a case in which the Deputy Director found that the subject
                 committed misconduct in science when he seriously misrepresented his research
                 progress and capabilities in proposals submitted to NSF. The Deputy Director required
                 the subject to provide detailed certifications and assurances to OIG for two years
                 starting in April 1999, in connection with any proposal or report submitted to NSF.
                 However in our September 2001 Semiannual Report (pp. 35-36) we reported that
                 the subject repeatedly failed to provide the certifications or assurances that he was
                 required to submit, and that the omissions were knowing and deliberate. Because
                 administrative actions less than debarment in serious misconduct cases can only be
                 effective if they are enforced by significant adverse consequences when they are
                 breached, we recommended that NSF debar the professor for a period of two years.
                      NSF’s Deputy Director issued a Notice of Proposed Debarment to the professor,
                 and counsel for the professor submitted a response objecting to the proposed
                 debarment. The professor and NSF resolved the matter with a settlement agreement
                 that required the professor to provide detailed certifications and assurances in
                 connection with any research proposals or reports he submits to NSF until October
                 25, 2003. The settlement agreement also stipulated that any breach of the certification
                 and assurance requirements will constitute a material breach of the agreement,
                 warranting debarment under NSF’s debarment regulation.

                 Significant Administrative Cases
                      Verbatim Use of Project Management Text from Others’ Proposals. Two cases
                 were closed involving Research Experiences for Undergraduates (REU) proposals,
                 each of which included about three pages of material allegedly copied, verbatim,
                 from an earlier successful REU proposal written by other authors. The allegedly
                 copied materials described procedures to track student progress and success with the
                 project.
                      Neither proposal distinguished the allegedly copied materials, included citations
                 to the source document, nor contained an acknowledgement for permission to use
                 the materials. At the same time, the biographical sketches in the proposals suggested


        42
                                                                OIG Semiannual Report September 2002




that each PI had some prior working relationship with the source document’s authors.
The PIs provided information to us showing their participation in the development
of the source document, which we independently confirmed.
      Although these two cases were resolved quickly and confidentially, the question
of the appropriate use of common (boilerplate) text has come to our attention before.
In three other cases (SA citations) the PIs did not have permission for their extensive
unattributed use of text authored by others. In each of these cases, NSF concluded
that the PIs committed research misconduct. NSF debarred two and imposed
certification and assurance requirements on the third. In resolving these cases we
learned that either the institution or the original authors had a practice of sharing
these sections with other PIs at their own, or other institutions. This practice raises
issues, such as when, if ever, is it appropriate for PIs to use these types of materials
without citation; what role should grantees play in overseeing the management sections
of proposals; and what, if anything, should NSF do to change the expectations in the
project management section of these types of proposals. Institutional or departmental
policies that articulate acceptable practices for using and sharing “boilerplate” text
would ensure that authors understand the authorized uses of boilerplate text they
authored and may therefore reduce the number of allegations.
      University Violates Cost Sharing Requirements. We received an allegation
that a northeastern university committed fraud by repeatedly using Federal money as
a source for matching funds under a Young Investigator grant. This Young Investigator
grant consists of an annual base award of $25,000 plus up to $37,000 of additional
funds per year on a dollar-for-dollar match of funds from eligible sources. Under the
requirements applicable to this grant, funds from other federal agencies were not
eligible as a source for matching. We conducted an investigation into the fraud
allegations and concluded that although Federal funds were used as a match, there
was sufficient evidence to suggest that the institution did not act with fraudulent
intent. A concurrent audit report confirmed our conclusion concerning cost sharing.
We referred the matter to the Cost Analysis and Audit Resolution Branch of NSF’s
Contracts, Policy and Oversight (CPO) Division for review and resolution. CPO
concluded that the university should repay $53,900, and CPO is in the process of
recovering these funds.


Other Investigative Activities
Concerns Regarding NSF Grantees and the New Bioterrorism Laws
     Congress recently enacted two statutes designed to improve the ability of the
United States to prevent, prepare for, and respond to bioterrorism and other public
health emergencies: the Public Health Security and Bioterrorism Preparedness and
Response Act of 2002 and the Agricultural Bioterrorism Protection Act of 2002.



                                                                                           43
Investigations




                 Although the Acts are extensive, of relevance to NSF grantees are provisions requiring:
                 (1) registration of possession, use, or transfer of agents/toxins deemed a threat to
                 public health or a threat to animal or plant health, including recombinant organisms
                 and genetic elements; (2) safety procedures for the transfer of selected agents/toxins;
                 and (3) security requirements for registered facilities to ensure limited access to selected
                 agents/toxins.
                       Responsibility for administration of the Acts rests on the Department of Health
                 and Human Services (HHS) and the Department of Agriculture (USDA). HHS and
                 USDA must establish a list of “selected agents/toxins,” and persons possessing, using,
                 or transferring those agents/toxins must notify HHS or USDA, depending upon the
                 agent/toxin at issue. HHS and USDA must also establish regulations regarding safety
                 procedures for the transfer of selected agents/toxins and security requirements for
                 registered facilities to ensure limited access to the selected agents/toxins. Failure to
                 register and the transfer of agents/toxins to persons not registered are criminal offenses
                 punishable by a fine of up to $500,000, imprisonment up to five years, or both.
                       According to NSF’s FastLane database, there are 28 current grantees that are
                 conducting research using selected agents/toxins. To comply with the Acts, these
                 grantees may be required to notify HHS or USDA and comply with the transfer,
                 safety, and security regulations. We were especially concerned because four of these
                 grantees are small entities or individuals, who may receive no other Federal funding,
                 and may be unaware of these new requirements. We raised our concerns with NSF
                 and recommended that the agency develop mechanisms for determining that awardees
                 are in compliance with the Acts—and particularly to ensure that NSF’s smaller grantees
                 are aware of the requirements.
                        NSF informed us that it would rely on the procedures implemented by HHS
                 and USDA to notify grantees. Although NSF stated that it would contact the
                 particular small grantees we identified, it stated that it would not take any action to
                 ensure knowledge of these new requirements by future NSF grantees, because it believes
                 it is “neither necessary nor appropriate to interfere with or duplicate the notice and
                 enforcement role of HHS and USDA.” The Center for Disease Control is also
                 mailing guidance and notification forms to institutions identified as potential users
                 of these toxic agents. We encourage NSF to reconsider this decision, because adding
                 a condition instructing grantees to comply with HHS and USDA bioterrorism
                 requirements could not in any way interfere with or duplicate those requirements,
                 but would provide important information to small entities and individuals that receive
                 Federal funding from no agency other than NSF.

                 Referral of NSF Patent Disclosure Oversight Review to Office of
                 Audit
                      We resolved two cases involving disputes over patents and patent disclosures
                 required by the Bayh-Dole Act of 1980 (the Act). Prompted by these cases and
                 reports indicating a sharp rise in the numbers of patent disclosures to the government,


        44
                                                             OIG Semiannual Report September 2002




we undertook a limited review of NSF’s system for handling patent disclosures. The
Act is designed to promote science and technology and to aid the U.S. economy by
allowing grantees or inventors to retain the patent rights to inventions developed
under Federal funding. Funding agencies are charged with oversight of grantees’
disclosures of these inventions and providing notice of confirmatory licenses to the
Patent and Trademark Office (PTO). Previous GAO reports have commented on the
inefficiencies in the Federal agencies’ systems and contained recommendations for
improvements.
      NSF’s regulation implementing the Act designates the Office of General Counsel
(OGC) as responsible for administering invention disclosures related to NSF grants.
We found that OGC is now making progress towards effectively managing disclosures
under the Act. For example, OGC is in the process of reducing a backlog of invention
disclosures and is hiring new personnel to ensure that its filings with the PTO are
timely. In the absence of such filings, PTO cannot ensure that the information is
available to Federal agencies to enable them to exercise the Government’s rights.
OGC is also now looking for effective ways to work with the National Institutes of
Health (NIH) to establish a fully electronic reporting system.




                                                                                       45
Investigations




        46
                                                      Statistical Data

Reporting Terms Defined                                  48


Audit Reports Issued
With Recommendations for Better Use of Funds             49


Audit Reports Issued With Questioned Costs               50


Audit Reports Involving Cost-Sharing Shortfalls          51


Status of Internal NSF Recommendations                   52


List of Reports                                          53


NSF-Cognizant Reports                                    54


Other Federal Audits                                     55


Audit Reports With Outstanding Management Decisions      56


Investigations Case Activity                             57


Investigations Case Statistics                           58


Freedom of Information Act and Privacy Act Requests      59




                                                          47
Statistical Data




                   Reporting Terms Defined
                        Some of the more common terms that we use in reporting audit statistics and
                   findings are defined below:

                   Questioned Cost. Auditors question costs because of an alleged violation of a
                   provision of a law, regulation, grant, cooperative agreement, or contract. In addition,
                   a questioned cost may be a finding in which, at the time of the audit, either a cost is
                   not supported by adequate documentation, or the expenditure of funds for the
                   intended purpose is deemed unnecessary or unreasonable.

                   Unsupported Cost. A cost that is questioned because it is not supported by adequate
                   documentation at the time of audit.

                   At-Risk Cost Sharing. Cost sharing is identified as “at risk” if an awardee is lagging
                   in meeting its cost-sharing obligation for an award that is still active. In some situations,
                   the awardee may purport to be funding its obligation but lacks internal controls and
                   documentation to support its claim, making it difficult to determine their allowability
                   under federal cost principles.

                   Management Decision. Management’s evaluation of the findings and
                   recommendations included in the audit report, and the issuance of a response or
                   final decision. It is important to note that NSF is responsible for making a management
                   decision regarding questioned costs that determines whether they will be sustained
                   (i.e., disallowed) or allowed.

                   Funds Put to Better Use. Audit recommendations that identify ways to improve
                   the efficiency of programs frequently lead to prospective benefits over the life of an
                   award or funds put to better use. Examples include reducing outlays, deobligating
                   funds, or avoiding unnecessary expenditures.

                   Final Action. The completion of all management actions that are described in a
                   management decision with respect to audit findings and recommendations. If
                   management concluded that no actions were necessary, final action occurs when a
                   management decision is issued.

                   Compliance or Internal Control Issues. Audits often result in recommendations
                   either to improve the auditee’s compliance with NSF and federal regulations, or to
                   strengthen the auditee’s internal control structure to safeguard federal funds from
                   fraud, waste, abuse, and mismanagement.




         48
                                                         OIG Semiannual Report September 2002




Audit Reports Issued With
Recommendations for Better Use of Funds


                                                                  Dollar Value

A. For which no management decision has been made by the
   commencement of the reporting period                                    $0

B. Recommendations that were issued during the reporting period      $444,103

C. Adjustments related to prior recommendations                            $0

Subtotal of A+B+C                                                    $444,103

D. For which a management decision was made during the
   reporting period                                                        $0

   i) Dollar value of management decisions that were consistent
      with OIG recommendations                                             $0

   ii) Dollar value of recommendations that were not agreed
       to by management                                                    $0

E. For which no management decision had been made by the
   end of the reporting period                                       $444,103

For which no management decision was made within
6 months of issuance                                                        0




                                                                                 49
Statistical Data




                   Audit Reports Issued With Questioned Costs


                                                     Number
                                                       of      Questioned   Unsupported
                                                     Reports     Costs         Costs

                      A. For      which        no
                      management decision     has
                      been made by            the
                      commencement of         the
                      reporting period                  9      $1,311,543       $21,296

                      B. That were issued during
                      the reporting period              9        $869,133       $17,805

                      C. Adjustments related to
                      prior recommendations                       $19,443           $0

                   Subtotal of A+B+C                   18      $2,200,119       $39,101

                      D. For      which       a
                      management decision was
                      made during the reporting
                      period:                           8      $1,017,008       $21.296

                          1. Dollar value of
                          disallowed costs             N/A       $467,159           N/A
                          2. Dollar value of costs
                          not disallowed               N/A       $549,849           N/A

                      E. For       which   no
                      management decision had
                      been made by the end of
                      the reporting period             10      $1,183,111       $17,805

                      For which no management
                      decision was made within
                      6 months of issuance              1        $313,978            $0




         50
                                                              OIG Semiannual Report September 2002




Audit Reports Involving Cost-Sharing Shortfalls


                                 Number       Cost-       At Risk of     Actual
                                   of        Sharing     Cost Sharing Cost Sharing
                                 Reports    Promised       Shortfall   Shortfalls
                                                          (Ongoing    (Completed
                                                           Project)     Project)
  A. Reports with monetary
  findings for which no
  management decision has
  been made by the beginning
  of the reporting period:         4        $6,099,437     $1,406,881      $19,801

  B. Reports with monetary
  findings that were issued
  during the reporting period:      2      $12,414,037    $9,720,295            $0

  C. Adjustments related to
  prior recommendations            (1)             $0      $(945,141)           $0

Total of Reports with
Cost Sharing Findings (A+B+C)      5       $18,513,474 $10,182,035         $19,801

  D. For      which       a
  management decision was
  made during the reporting
  period:                          3        $6,099,437      $461,740       $19,801

      1. Dollar value of cost-
      sharing shortfall that
      grantee agreed to
      provide                     N/A             N/A             $0       $13,595
      2. Dollar value of cost-
      sharing shortfall that
      management waived           N/A             N/A       $461,740        $6,206

  E. Reports with monetary
  findings for which no
  management decision has
  been made by the end of
  the reporting period             2       $12,414,037    $9,720,295            $0



                                                                                      51
Statistical Data




                   Status of Internal NSF Recommendations


                   Open Recommendations (as of 9/30/02)
                      Recommendations Open at the Beginning of the Reporting Period                          26
                      New Recommendations Made During Reporting Period                                       89
                      Total Recommendations to be Addressed                                                 115


                   Management Resolution of Recommendations4
                     Awaiting Resolution                                                                      73
                     Resolved Consistent With OIG Recommendations                                             42


                   Management Decision That No Action is Required                                              0


                   Final Action on OIG Recommendations5
                       Final Action Completed                                                                 34
                       Recommendations Open at End of Period                                                  81


                   Aging of Open Recommendations

                            Awaiting Management Resolution:
                            0 through 6 months                                                                73
                            7 through 12 months                                                                0
                            More than 12 months                                                                0

                            Awaiting Final Action After Resolution:
                            0 through 6 months                                                                 2
                            7 through 12 months                                                                0
                            13 through 18 months                                                               2
                            19 through 24 months                                                               4


                    4
                      “Management Resolution” occurs when the OIG and NSF management agree on the corrective
                    action plan that will be implemented in response to the audit recommendations.
                    5
                      “Final Action” occurs when management has completed all actions it agreed to in the corrective
                    action plan.




         52
                                                   OIG Semiannual Report September 2002




List of Reports


 NSF and CPA Performed Reviews
                                                             Better        Cost
 Report                             Questioned Unsupported
                       Subject                               Use of       Sharing
 Number                               Costs       Costs
                                                             Funds        At-Risk


 02-1-014 For-profit organization        $0        $0         $0             $0
 02-1-015 University                     $0        $0         $0             $0
 02-1-016 Non-profit organization        $0        $0 $444,103               $0
 02-1-017 School district                $0        $0         $0             $0
 02-1-018 Research institute          $4,434       $0         $0             $0
 02-1-019 University                     $0        $0         $0             $0
 02-1-020 School district           $616,048       $0         $0             $0
 02-1-021 School district                $0        $0         $0      $9,480,490
 02-1-022 University                     $0        $0         $0       $239,805
 02-1-023 Community college          $24,578   $17,805        $0             $0
 02-1-024 College                    $51,842       $0         $0             $0
 02-2-006 NSF internal review            $0        $0         $0             $0
 02-2-007 NSF internal review            $0        $0         $0             $0
 02-2-008 NSF internal review            $0        $0         $0             $0
 02-2-009 NSF internal review            $0        $0         $0             $0
 02-2-010 NSF internal review            $0        $0         $0             $0
 02-2-011 NSF internal review            $0        $0         $0             $0
 02-2-012 NSF internal review            $0        $0         $0             $0
 02-2-013 NSF internal review            $0        $0         $0             $0
 02-2-014 NSF internal review            $0        $0         $0             $0
 02-6-003 Audit firm                     $0        $0         $0             $0
           Total:                   $696,902   $17,805 $444,103       $9,720,295




                                                                               53
Statistical Data




                   NSF-Cognizant Reports

                                                                                    Cost
                    Report                                Questioned Unsupported
                                        Subject                                    Sharing
                    Number                                  Costs       Costs
                                                                                   At-Risk
                    02-4-006 National observatory              $0        $0         $0
                    02-4-010 Research consortium               $0        $0         $0
                    02-4-011 Non-profit organization           $0        $0         $0
                    02-4-012 Non-profit institute              $0        $0         $0
                    02-4-013 Non-profit institute              $0        $0         $0
                    02-4-014 Museum                            $0        $0         $0
                    02-4-015 Museum                            $0        $0         $0
                    02-4-016 Museum                            $0        $0         $0
                    02-4-017 Atmospheric research consortium   $0        $0         $0
                    02-4-018 School district                   $0        $0         $0
                    02-4-019 Non-profit association            $0        $0         $0
                    02-4-020 Non-profit association            $0        $0         $0
                    02-4-021 Non-profit corporation            $0        $0         $0
                    02-4-022 Research consortium               $0        $0         $0
                    02-4-023 Non-profit association            $0        $0         $0
                    02-4-024 Non-profit organization           $0        $0         $0
                    02-4-025 Foundation                        $0        $0         $0
                              Total:                           $0        $0         $0




         54
                                                  OIG Semiannual Report September 2002




Other Federal Audits


                                                              Cost
 Report                             Questioned Unsupported
                     Subject                                 Sharing
 Number                               Costs       Costs
                                                             At-Risk
 02-4-021 Non-profit corporation     $53,900
 02-4-022 Research consortium         $8,000
 02-4-023 Non-profit association       $403
 02-4-024 Non-profit organization    $89,862
 02-4-025 Foundation                 $20,066
           Total:                   $172,231        $0         $0




                                                                          55
Statistical Data




                   Audit Reports With
                   Outstanding Management Decisions

                        This section identifies audit reports involving questioned costs, funds put to
                   better use, and cost sharing at risk where management had not made a final decision
                   on the corrective action necessary for report resolution within 6 months of the
                   report’s issue date. At the end of the reporting period there was one report remaining
                   that met this condition. The report involves questioned costs, totaling $313,978.
                   The status of recommendations that involve internal NSF management is described
                   on page 52 .




         56
                                                      OIG Semiannual Report September 2002




Investigations Case Activity



 April 1, 2002 - September 30, 2002

                       Preliminary   Civil/Criminal      Administrative


    Active Cases
    From Previous
    Reporting Period       10               30                    31

    New Cases             121               13                    19

    Closed Cases          110               18                    29

    Active Cases           21               25                    21




                                                                              57
Statistical Data




                   Investigations Case Statistics


                        New Referrals                                                                              2

                        Criminal Convictions/Pleas                                                                 0

                        Civil Settlements                                                                          0

                        Administrative Actions                                                                     4

                        Investigative Recoveries6                                                     $327,972.91

                        Research Misconduct Findings by NSF                                                        0

                        Cases Forwarded to NSF Management for Action                                               0

                        Cases Forwarded to NSF Management in Prior
                        Periods Awaiting Action                                                                    1

                        Assurances and Certifications Received7

                           Number of Cases Requiring Assurances During This Period                                  4
                           Number of Cases Requiring Certifications During This Period                              6
                           Assurances Received During This Period                                                   5
                           Certifications Received During This Period                                               0

                        Number of Debarments in Effect During This Period                                          3



                   6
                     Investigative recoveries include civil penalties, criminal fines, and funds paid in restitution, as
                   well as specific cost savings for the government.
                   7
                     NSF accompanies some actions with a certification and/or assurance requirement. For
                   example, for a specified period, the subject may be required to confidentially submit to OIG a
                   personal certification and/or institutional assurance that any newly submitted NSF proposal
                   does not contain anything that violates NSF regulations.




         58
                                                           OIG Semiannual Report September 2002




Freedom of Information Act
and Privacy Act Requests
     Our office responds to requests for information contained in our files under
the Freedom of Information Act (“FOIA,” 5 U.S.C. paragraph 552) and the Privacy
Act (5 U.S.C. paragraph 552a). During this reporting period:

 • We received 16 FOIA requests compared to 8 in the last reporting period. The
   response rate ranged between 3 days and 20 days, with a median of 17 days and
   the average around 14 days.

 • We did not receive any Privacy Act requests compared to two received last
   reporting period.

 • We received two appeals this reporting period and two last reporting period.
   Both appeals were denied. Individuals who are not satisfied with our responses
   to their requests can appeal to the OGC which neither did this period.




                                                                                    59
Statistical Data




         60
                                                            OIG Semiannual Report September 2002


                                                                                     Appendix 1


                                       Reporting Requirements

     Under the Inspector General Act, we report to the Congress every six months
on the following activities:
• Reports issued, significant problems identified, the value of questioned costs
  and recommendations that funds be put to better use, and NSF’s decisions in
  response (or, if none, an explanation of why and a desired timetable for such
  decisions). (See pp. 5-6, 47)
• Matters referred to prosecutors, and the resulting prosecutions and convictions.
  (See p. 35, 47)
• Revisions to significant management decisions on previously reported
  recommendations, and significant recommendations for which NSF has not
  completed its response. (See p. 52, 56)
• Legislation and regulations that may affect the efficiency or integrity of NSF’s
  programs. (See p. 8)
• OIG disagreement with any significant decision by NSF management. (None)
• Any matter in which the agency unreasonably refused to provide us with
  information or assistance. (None)




                                                                                     61
Statistical Data




         62
                                                       OIG Semiannual Report September 2002
                                                                              Appendix 2



                                                               Acronyms

COI     Conflict of Interest
CPO     Division of Contracts, Policy and Oversight
COV     Committee of Visitors
COTR    Contracting Officer’s Technical Representative
DACS    Division of Acquisition and Cost Support
DFE     Designated Federal Entity
DGA     Division of Grants and Agreements
DOJ     Department of Justice
ECIE    Executive Council of Integrity and Efficiency
DHHS    Department of Health and Human Services
EHR     Directorate for Education and Human Resources
EPA     Environmental Protection Agency
FBI     Federal Bureau of Investigation
FLETC   Federal Law Enforcement Training Center
FOIA    Freedom of Information Act
GAO     General Accounting Office
GISRA   Government Information Security Act
GPRA    Government Performance and Results Act
GSA     General Services Administration
HHS     Health and Human Services
HUD     Department of Housing and Urban Development
IAB     Industrial Advisory Board
IUCRC   Industry/University Cooperative Research Center
MIRWG   Misconduct In Research Working Group
MRE     Major Research Equipment
MREFC   Major Research Equipment and Facilities Construction
NIH     National Institutes of Health
NSB     National Science Board
NSF     National Science Foundation
OGC     Office of General Counsel
OIG     Office of Inspector General
OMB     Office of Management and Budget
ONR     Office of Naval Research
OSTP    Office of Science and Technology Policy
PCIE    President’s Council on Integrity and Efficiency
PI      Principal Investigator
PFCRA   Program Fraud Civil Remedies Act
PTO     Patent and Trademark Office
QCR     Quality Control Review
REU     Research Experiences for Undergraduates
RM      Research Misconduct




                                                                               63
Statistical Data




                   Acronyms (cont’d)

                   SBIR   Small Business Innovation Research
                   SRA    Society of Research Administrators
                   SSN    Social Security Number
                   USAP   United States Antarctic Program
                   USDA   U.S. Department of Agriculture
                   USI    Urban Systemic Initiative
                   USP    Urban Systemic Program
                   VA     Veterans Administration




         64
                      Organization Chart



                             INSPECTOR
                              GENERAL
                            Christine C. Boesz

                           DEPUTY INSPECTOR
                               GENERAL
                                Tim Cross

COUNSEL TO THE
  INSPECTOR
   GENERAL

  Arthur A. Elkins




ASSOCIATE IG FOR                                 ASSOCIATE IG FOR
     AUDIT                                       INVESTIGATIONS

 Deborah H. Cureton                                Peggy L. Fischer




      AUDIT                ADMINISTRATIVE         INVESTIGATIVE
      STAFF                    STAFF                  STAFF
      ...with Liberty and Justice for All

                           Still




                  National Science Foundation
                   Office of Inspector General
                  4201 Wilson Blvd., Rm. 1135
                     Arlington, VA 22230

             Internet Web Site: http://www.oig.nsf.gov
                     Telephone: 703-292-7100
To Report Fraud, Waste or Abuse, Call Our Hotline: 1-800-428-2189
